<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?

   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                   JOSE E. SERRANO, New York, Chairman
 DEBBIE WASSERMAN SCHULTZ, Florida   JO ANN EMERSON, Missouri
 ROSA L. DeLAURO, Connecticut        JOHN ABNEY CULBERSON, Texas
 CHET EDWARDS, Texas                 MARK STEVEN KIRK, Illinois
 ALLEN BOYD, Florida                 ANDER CRENSHAW, Florida
 CHAKA FATTAH, Pennsylvania
 BARBARA LEE, California
 ADAM SCHIFF, California            

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                   David Reich, Bob Bonner, Lee Price,
                    Karyn Kendall, and Andria Oliver,
                           Subcommittee Staff

                                ________

                                 PART 7
                                                                   Page
 District of Columbia.............................................    1
 General Services Administration..................................   75
 National Archives and Records Administration.....................  137

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations






   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                   JOSE E. SERRANO, New York, Chairman
 DEBBIE WASSERMAN SCHULTZ, Florida  JO ANN EMERSON, Missouri
 ROSA L. DeLAURO, Connecticut       JOHN ABNEY CULBERSON, Texas
 CHET EDWARDS, Texas                MARK STEVEN KIRK, Illinois
 ALLEN BOYD, Florida                ANDER CRENSHAW, Florida
 CHAKA FATTAH, Pennsylvania
 BARBARA LEE, California
 ADAM SCHIFF, California            

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                   David Reich, Bob Bonner, Lee Price,
                    Karyn Kendall, and Andria Oliver,
                           Subcommittee Staff

                                ________

                                 PART 7
                                                                   Page
 District of Columbia.............................................    1
 General Services Administration..................................   75
 National Archives and Records Administration.....................  137

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 50-867                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS
                   DAVID R. OBEY, Wisconsin, Chairman
 JOHN P. MURTHA, Pennsylvania          JERRY LEWIS, California
 NORMAN D. DICKS, Washington           C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia       HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                    FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana           JACK KINGSTON, Georgia
 NITA M. LOWEY, New York               RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York             Jersey
 ROSA L. DeLAURO, Connecticut          TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia              ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts          TOM LATHAM, Iowa
 ED PASTOR, Arizona                    ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina        JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                   KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island      MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York          JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California     MARK STEVEN KIRK, Illinois
 SAM FARR, California                  ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois       DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan       JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                   RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania            KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey         JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia       STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas                TOM COLE, Oklahoma  
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          
                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2010

                              ----------                                
        

                                            Thursday, May 14, 2009.

                 GOVERNMENT OF THE DISTRICT OF COLUMBIA

                               WITNESSES

ADRIAN M. FENTY, MAYOR, DISTRICT OF COLUMBIA
VINCENT C. GRAY, CHAIRMAN, COUNCIL OF THE DISTRICT OF COLUMBIA
NATWAR M. GANDHI, CHIEF FINANCIAL OFFICER, DISTRICT OF COLUMBIA
    Mr. Serrano. The subcommittee will come to order.
    We welcome our guests today and tell you how happy we are 
to see all three of you.
    This hearing may not be as attended by members as other 
hearings are, and it is no reflection on the issue before us or 
the folks before us. It is the fact that both sides of the 
aisle are diligently discussing a very big bill that is coming 
up today called the supplemental bill, and there are some last-
minute decisions to be made. That is the reason that our 
hearing will start earlier today, to accommodate the 
possibility of votes. But we will get through it, as we do all 
the time.
    Now, before I start, I just wanted to make a personal 
comment. Sometimes we do things that some folks would consider 
symbolic, but in the process of doing that, we make a strong 
statement. For 10 years, I kept asking the U.S. Mint to include 
D.C. and the territories in the 50 State Quarters Program. And 
they kept telling us that they were not States, so they could 
not be included. And Ms. Norton was doing the same thing, and 
they kept telling her, they are not States, they cannot be 
included.
    Then, if there is something you can teach American children 
about our political process, what you do is you become chairman 
of the committee that oversees the U.S. Mint. Then you do not 
ask them, you kind of tell them. And so the first quarter was 
D.C.'s quarter, and it had Duke Ellington on the other side of 
the quarter. My understanding is that that was historic in 
itself, not only because it was the first non-State on American 
currency, but it was the first time an African American had 
been on a regularly circulated coin. I want to clarify that. 
Booker T. Washington, George Washington Carver, and Jackie 
Robinson have been on commemorative coins, but not a coin put 
into general circulation. So D.C. created that historic moment.
    The second quarter came out, and of course I understood 
D.C. had to go first, but darn, I am the chairman of the 
committee, so Puerto Rico went second. And you have in front of 
you, from the first print, both a card where I take credit for 
it all and the quarter. The quarter on the back has the part of 
El Morro Castle, it has a flower, and it has the saying, ``Isla 
del Encanto,'' ``Island of Enchantment.'' Now, Rush Limbaugh 
has not noticed that there is Spanish for the first time ever 
on American currency. That may start a whole different 
discussion.
    But I wanted you to share in this, because, as one who was 
born in a territory and who cares much for the District of 
Columbia, we did this together. I believe Guam goes next, and 
by the end of the year every territory and D.C. would have had 
their own quarter. And somewhere in this Nation a child will 
ask why, and the parent will either say, ``Let's Google it,'' 
or strongly say, ``Because they are part of the American 
family,'' or, ``Wait until your father comes home.'' I do not 
know which question will be answered.
    But that is the quarter. And, you know, maybe 50 years from 
now folks will not remember much what some of us did, but this 
quarter will still be in circulation.
    The subcommittee today will hear testimony on the fiscal 
2010 budget request for the District of Columbia. I would like 
to welcome back Mayor Adrian Fenty, Council Chairman Vincent 
Gray, and District Chief Financial Officer Dr. Natwar Gandhi.
    I welcome you all to today's hearing. We are getting a bit 
of an early start today because we will be on the House floor 
later this morning concerning the Fiscal Year 2009 Supplemental 
Appropriations Bill. I appreciate you adjusting your schedules 
to be here.
    The District budget request, as I understand, the fiscal 
year 2010 request is currently being reviewed by the Council 
and will not be transmitted to Congress until early June. As 
presented to the Council, the District's fiscal year 2010 
request totals $11 billion, including $5.4 billion in local 
source general funds. For fiscal year 2010, the President's 
budget recommends Federal payments to the District totalling 
$188 million, a net decrease of $14 million.
    The request includes $27 million for several new 
initiatives, including $19 million to provide permanent housing 
for the homeless and $5 million for education and job training 
opportunities for young people. I look forward to hearing more 
about these initiatives in your testimony.
    The request also includes $62 million to improve the 
District's public and charter schools and $12 million for the 
school voucher program.
    As I have said in past hearings, I feel a special kinship 
with the people of the District. As one born in Puerto Rico, a 
territory which shares the District's condition of having an 
undefined political status, I sympathize with your situation. I 
am a strong supporter of the voting rights bill now pending in 
Congress. I am hopeful that legislation will be enacted without 
unrelated provisions that encroach on local District laws. This 
legislation is long overdue.
    When I became chairman of this subcommittee 2 years ago, 
one of my top priorities was to give the District of Columbia 
more autonomy in managing its fiscal affairs, particularly in 
deciding how local funds are spent. In fact, I may be the only 
chairman in the history of this Congress to actually want to 
give up power rather than take some more than what we were 
given. I am a strong believer that the District is in the best 
position to set local spending priorities, and not Congress. In 
the last 2 years, we have made progress, but I know there is 
more work to be done. I look forward to working with the 
District's leadership to see how we can further increase the 
city's autonomy on local spending matters.
    In closing, I would like to commend the three of you for 
your strong fiscal stewardship of the city. The District has 
completed 12 consecutive balanced budgets, turned deficits into 
surpluses, and steadily improved the city's credit rating. Even 
in these difficult economic times, with plunging tax revenues 
and real estate values, the District's finances are sound, and 
it is a credit to the three of you here today. I look forward 
to working with you as we go through this process.
    One of the things that I have always mentioned to all three 
of you and to our ranking member is that, for too long, D.C. 
has been used by Congress as a testing ground for issues that 
many Members of Congress would not dare test in their own 
districts. So I suspect with some of the bold and courageous 
and humane steps you have taken in the last few months, 
especially in the City Council, that we will hear more of this 
kind of debate in Congress. But rest assured that this Member 
believes that the District should get more and more autonomy, 
and I respect your desire for self-government.
    And now I would like to turn to my colleague and a friend, 
true friend, our ranking member, Jo Ann Emerson.
    Mrs. Emerson. Thank you very much, Chairman.
    Welcome, you all. I appreciate so much your being here. You 
may know I am the new ranking member on this subcommittee, and 
so it is really with great pleasure that I greet you all. And I 
once, when I first got on the Appropriations Committee, was on 
the D.C. Committee when it existed on its own, just for one 
term, and enjoyed it very much then. So I am glad to be back 
with you all.
    And I understand, too, the challenges that you all are 
facing in the city during a recession, when tax revenues are 
declining. And, as a result, your budget, Mayor, is 3.9 percent 
less than it is from this current year. And I have to 
congratulate you all, I mean, for putting together a fiscally 
responsible budget. We might actually learn a lot from you all 
here in the Congress. But, certainly, it is very encouraging to 
see at the local level government can make tough decisions and 
live within available means. And so I congratulate you all on 
that.
    And I also want to congratulate you, Mayor and Chairman 
Gray, for the efforts that you are making to reform our schools 
in the District. I am supportive of your efforts to consolidate 
schools, implement personnel reforms, and improve gifted and 
talented, music, art, and special education programs. And 
living right around the corner from the Duke Ellington School 
myself, I am always thrilled to see the young students. And 
that is a wonderful place in which to learn, and I wish we 
could have more opportunities for students like that. And I 
know that you all are going to be working hard to continue your 
reform efforts, and believe very strongly that the children of 
our city and the entire region will benefit from it.
    I am pleased that the budget request from the President 
proposes the continuation of the Federal Government's three-
sector commitment to education in the District by including 
funding for public schools, public charter schools, and 
Opportunity Scholarships. As you may imagine, I am disappointed 
that the proposed budget prohibits additional students from 
receiving an Opportunity Scholarship, and noted this morning's 
Washington Post probably feels the same way when they say that, 
if the program is working, why not continue it so more children 
can benefit. That being said, I am glad that the President at 
least believes strongly that the current number of children who 
are enrolled should be able to continue to finish their 
education within that scholarship program.
    I look forward to working with you all. I look forward to 
working with the chairman. I, too, am a supporter of D.C. 
voting rights. I just want you all to know that, for the 
record. So thank you for being here.
    Mr. Serrano. Thank you.
    We will recognize our three witnesses in the order of Mayor 
Fenty, followed by Chairman Gray, and then Dr. Gandhi. We ask 
that you keep your testimony down to 5 minutes. Your full 
statement will go in the record, and then we can grill you with 
incredible questions.
    I understand and I realize that we start this on a sad note 
because Ryan Zimmerman's streak ended at 30 games, but maybe we 
can start another streak here today of good things for D.C.
    See, I keep up to date, Mayor.
    Mrs. Emerson. He certainly did a good job. He and Jordan 
Zimmermann did a good job against my Cardinals. Very sad, very 
sad. But, anyway, what can I say?
    Mr. Serrano. They do not get to play the Yankees any time 
soon.
    Mr. Mayor.
    Mayor Fenty. Chairman Serrano, Ranking Member Emerson, and 
distinguished subcommittee members, it is my pleasure to be 
here today to speak to you about the President's proposed 
fiscal year 2010 appropriation for the District of Columbia.
    I would like to begin with a brief overview of the 
District's fiscal condition before discussing the specifics of 
the President's request.
    In keeping with the District's commitment to fiscal 
responsibility and sound financial practices, our budget 
proposal is balanced for the 14th consecutive year. The $10.3 
billion spending plan includes $5.4 billion in local funds, 
more than a 3 percent decrease from the prior year's budget, 
and $2.5 billion in Federal grants to States for Medicaid, 
education, transportation, and other initiatives.
    The proposed budget also includes a total of $186 million 
in State fiscal stabilization funds made available through the 
American Recovery and Reinvestment Act. Those funds have 
enabled us to continue to provide many critical services on 
which District residents depend.
    Education remains our top priority. The District is moving 
forward with an aggressive public education reform agenda under 
the dynamic leadership of Chancellor Michelle Rhee. Your 
commitment has enabled us to make radical improvements in our 
public schools. The President's budget request includes $42 
million to directly support our efforts to create a diverse 
school portfolio that offers options to students and their 
families within the traditional public school system.
    We will attract and retain highly effective teachers to the 
District's public schools by providing innovative compensation, 
strengthening our early childhood programs as well as gifted 
and talented education initiatives. We will prepare DCPS 
students for careers in science, technology, engineering, and 
mathematics.
    I am pleased that the President's budget also continues $20 
million in funding to support charter school facilities with a 
credit enhancement program as well as a $35.1 million 
continuance of the Tuition Assistance Grants program, which 
goes to District residents pursuing higher education. I support 
the President's proposal to continue funding Opportunity 
Scholarships for students who currently have them.
    The President's fiscal year 2010 budget proposal includes 
funding for several partnerships with the Federal Government to 
improve public safety and the environment in the District of 
Columbia. Last week, I announced that the District selected the 
contractor to build the Consolidated Forensic Laboratory. That 
will help law enforcement solve crimes quickly and house public 
health and safety functions within the same facility for the 
first time. A final $15 million Federal payment in fiscal year 
2010 will fully fund this important public safety, public 
health, and homeland security project. And I commend the 
President for including that in his submission.
    The District hosts a broad range of major public events due 
to our role as the seat of the United States Government. In 
January of this year, the District was proud to successfully 
host the new President's inauguration. Regular events expected 
in fiscal year 2010 include protests, demonstrations, and many 
other major national and international events. The complexity 
and costs of planning and security for these events are high 
and growing. And, as in previous years, the District is 
requesting Federal funds to cover our expenses for these 
events.
    The President's fiscal year 2010 budget also contains 
funding for improvements to our Combined Sewer System to help 
protect the Chesapeake Bay and Potomac and Anacostia Rivers 
from pollution and funding for the Criminal Justice 
Coordinating Council, which implements the JUSTIS database to 
help Federal agencies and the District share information 
throughout the justice system.
    In addition to all of these efforts, the President's budget 
contains funding for two new exciting initiatives designed to 
meet the needs of two important groups in our Nation's capital: 
one, our homeless neighbors; and two, our disconnected youth.
    The District has made developing effective solutions to 
homelessness a top priority. The Housing First initiative has 
begun to transform the delivery of homeless services from 
meeting survival needs to providing housing with wraparound 
support services. The Housing First initiative has housed 427 
individuals and 34 families just in the past 2 years. In 2009, 
the number of unsheltered people in the District decreased by 
nearly 15 percent, an unprecedented year-to-year reduction. Our 
new Federal partnership on the Housing First program will 
enable us to house up to 400 additional individuals and 150 
additional families and will significantly decrease our 
chronically homeless population.
    Federal funds for our efforts to reconnect disconnected 
youth will improve the community-based services provided to 
court-involved youth and their families. Our overarching goal 
is to ensure that our young people have the tools to become 
active and productive residents of the District of Columbia.
    As the District's Mayor and lifelong resident of this great 
city, I view Members of Congress as critical partners in our 
work to improve the lives of District residents and ensure a 
positive experience for District visitors. I look forward to 
continuing to work not only with our Council of the District of 
Columbia and our fabulous chairman, Vincent Gray, the 
hardworking team of the chief financial office, led by CFO 
Natwar Gandhi, and you, Chairman Serrano and Ranking Member 
Emerson, and the rest of Congress to make sure that our mutual 
goal of making Washington, D.C., our Nation's capital, a world-
class capital city.
    This concludes my prepared remarks, and I am happy to 
answer any questions.
    [The information follows:]

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Serrano. Thank you.
    Chairman Gray.
    Mr. Gray. Thank you very much, Chairman Serrano, 
Congresswoman Emerson, Congressman Edwards. I am delighted to 
be here, to be a part of this hearing today and to represent 
the city, to be here with the Mayor, our chief financial 
officer, and to represent the Council of the District of 
Columbia.
    This year, the Council, along with the Mayor, had the 
difficult task of determining how to continue to provide the 
services our citizens deserve in an environment of reduced 
revenue projections. For the first time in many years, the 
District is proposing a reduced local budget of about $100 
million for fiscal year 2010, as compared to fiscal year 2009, 
a 2 percent decrease. The proposed overall budget for fiscal 
year 2010 is $10.4 billion, and, as has been pointed out 
already, is a local budget of $5.4 billion.
    In spite of the adjusted revenue projections, the proposed 
fiscal 2010 budget will be the District's 14th consecutive 
balanced budget, as we all like to say, as you have heard 
probably 10 times today already.
    I would like to thank Congress for passing the American 
Recovery and Reinvestment Act of 2009. The provisions in the 
act have markedly assisted the city in funding needed services.
    The Council is committed, as is the Mayor, to improving the 
educational system in the District and the performance of our 
students. The Council continues to back the Mayor's efforts to 
improve and restructure our school system. With these 
objectives in mind, the Council provided full funding for the 
second year of implementation of the pre-kindergarten learning 
program, restored funding for the charter schools facilities 
allotment, and funding for a capital project that is a student 
center for the University of the District of Columbia.
    In addition, the Council has provided funding for the 
prestigious National Research Council of the National Academy 
of Sciences to carry out an independent review of school 
reform, as required by the Public Education Reform Amendment 
Act of 2007.
    The Council supports the continuation of the Federal 
payment for school improvement. The payment is essential to 
continuing the enhancements that both the District and the 
Federal Government want to see in the District schools. Due to 
the success of this program, the President has proposed $74.4 
million for the three-sector funding for fiscal year 2010, and 
I ask that you support this proposal.
    The Tuition Assistance Grant Program has been very 
successful since its inception 8 years ago. The students in the 
program have attended schools in 47 different States. Many of 
the students who participate are the first in their family to 
attend college. And I want to thank the President for including 
funding of $35.1 million for the program in fiscal year 2010.
    As mentioned already, the District has begun an effort to 
place homeless families and individuals in permanent housing. 
As part of this initiative, other support services are provided 
to these families to assist them in addressing other issues in 
their lives that prevent them from being fully contributing 
members of society. To assist the District with these efforts 
in this area, the President has provided $19.2 million for 
permanent supportive housing, and we ask for your support.
    As the District now prepares to break ground for our new 
Consolidated Forensic Laboratory, we are making a final request 
for Federal funding to ensure the timely completion of the 
facility. The ability to complete forensic analyses in a timely 
manner will aid the city in resolving crimes and putting 
criminals behind bars.
    The continuing threat of terrorist activities makes the 
need for a forensic laboratory in the District even more 
important. Therefore, I would like to ask the committee to 
support the District's final request for funding in the amount 
of $15 million for the laboratory, which was included in the 
President's proposed budget.
    Also, I ask the committee's sport for $15 million for 
protection to support the city's public safety agencies for 
demonstrations against the Federal Government and the daily 
transport/escort service for the President, Vice President, 
First Lady, as well as frequent deployments of fire and 
emergency medical services, equipment to helicopter arrivals.
    The city continues to face the problems of the inability to 
tax a large portion of the property within the city. GSA is 
looking at acquiring additional property that they currently 
lease. This will have a severe negative financial impact on the 
city and its ability to maintain services. It is a financial 
benefit to the city to have buildings leased and not owned by 
the Federal Government. I ask that this be taken into 
consideration as requests come before you from GSA to purchase 
properties.
    I would like to request support for two bills currently 
pending in the House that were introduced by Congresswoman 
Norton: H.R. 1045, the District of Columbia Budget Autonomy Act 
of 2009; and H.R. 830, the District of Columbia Legislative 
Autonomy Act of 2009. Passage of these two bills will greatly 
aid the city in improving operating efficiencies and, of 
course, increase our autonomy.
    Finally, I would like to end my testimony by asking the 
committee and the other Members of the House for your support 
and passage of H.R. 157, the District of Columbia House Voting 
Rights Act of 2009. Last year, at about this same time, I was 
thanking the members of this committee and the House for their 
passage of an earlier version of this bill and asked for your 
help with passage in the Senate. A year later, I am here again, 
making the same request for passage of a voting rights bill for 
the residents of the Nation's capital.
    In addition to having to ask for a right that is owed to 
the residents of the District of Columbia by their status as 
U.S. citizens and also paying annually about $3.6 billion in 
Federal taxes, I ask you also for a clean bill that does not 
include any amendments, in particular the amendment that would 
essentially remove the majority of the District's gun laws.
    I am disappointed that the voting rights bill has not been 
passed and that I have to ask that no amendments be placed on 
the bill. This is important to the citizens of the United 
States who reside in the District, both Republican and 
Democrat. They want their voices heard via a vote in the House 
of Representatives. As a leader of the free world, we should 
set an example for providing all citizens the rights of 
citizenship.
    In closing, I would like to ask that you pass this year's 
budget request in time for the start of the new fiscal year and 
that no extraneous riders be placed on the bill.
    I would like to thank the President for removing the ban on 
the use of local funds for abortions.
    I want to thank you, Chairman Serrano, and the other 
members of the subcommittee for this opportunity to share my 
thoughts on the District's budget and other issues important to 
the city. I look forward to working with you on the city's 
appropriations legislation, and I will be available for any 
questions that you may have.
    [The information follows:]

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gray. I have to take note of the lamenting the end of 
the streak by Ryan Zimmerman, but, as I recall, I think that 
record is held by a New York Yankee. Is that right, Chairman 
Serrano?
    Mr. Serrano. Yeah, but I also root for the Nats.
    Mr. Gray. The great Joe DiMaggio, is that right?
    Mr. Serrano. That is right. 56. What people forget is that 
then the streak broke, and then I think he went on another 16-
game hitting streak.
    Mr. Gray. Well, he was obviously one of the greatest 
players to ever step on the field.
    Mr. Serrano. Thank you, sir.
    Dr. Gandhi.
    Mr. Gandhi. Thank you, Mr. Chairman.
    I need that mike, sir.
    Mr. Serrano. The sharing of the mike is not a sign of how 
we feel about the District.
    Mr. Gandhi. Good morning, Mr. Chairman, Ranking Member 
Emerson, Mr. Edwards, and members of the committee. I am Natwar 
M. Gandhi, chief financial officer for the District of 
Columbia.
    As you can see from the chart here, Mr. Chairman, since 
1996 the responsible actions of the District's elected leaders 
have resulted in a $1.8 billion turnaround in the cumulative 
general fund balance, from a $518 million deficit to a $1.2 
billion positive balance.
    It is important to note that, of the $1.8 billion increase 
in the general fund balance, over $700 million, roughly 40 
percent, has been accumulated in the post-Control Board period. 
Indeed, our turnaround from the junk bond status to triple-A 
bond ratings was faster than every other major city that has 
undergone a period of financial crisis, including New York, 
Philadelphia, Cleveland, and Detroit.
    For the 2010 budget, this has been an exceptionally 
challenging budget and planning cycle. And I commend Mayor 
Fenty and City Administrator Tangherlini for sending the 
Council a balanced budget proposal. Since the proposed budget 
was submitted on March 20th, the Council, under the able 
leadership of Chairman Gray, has been hard at work. We will 
continue to work diligently with everyone in this collaborative 
process, and we expect to submit a balanced budget, our 14th 
budget in a row, to the Congress on June 8th.
    For the first time in many years, we have a budget that is 
smaller than the previous years. In addition to producing a 
balanced budget, we maintain the required levels of rainy day 
funds of at least $360 million throughout the 4-year plan. And 
in our capital budget, we continue to be prudent in our 
borrowing by imposing an even stricter limit than the level set 
in the Home Rule Act.
    It is important to note that bond rating agencies have 
stated that economic downturns are the true test of financial 
management. This balanced budget is testimony to our elected 
leaders' commitment to manage effectively in both good times 
and bad. In summary, the District continues to demonstrate 
sound financial management and fiscal prudence.
    Certainly, the greatest budget challenge for the District 
this year is the significant drop in estimated revenues over 
the next four years. Since June 2008, projected revenues have 
dropped nearly $400 million in 2009, $800 million in 2010, and 
about a billion each in 2011 and 2012. It will not be until 
fiscal year 2013 that we expect revenues to exceed 2008 levels. 
Clearly, the national recession has affected the District's 
revenues.
    The District also faces a variety of infrastructure needs 
placing great demands on its capital improvement plans and 
resultant borrowing. Both for the operating and capital 
expenditures, the District is responsible for multiple 
government functions that normally are associated with those of 
a city, a county, a school district, and a State.
    Using a ratio of total tax-supported debt to population, 
the District is dramatically out of step with other large 
cities. Compared to the District's $10,000 per capita 
borrowing, New York City's is less than $7,000; Chicago, 
$4,000; Boston, $1,800; and Baltimore, only $1,200.
    Further, the District, as the urban center of a large 
metropolitan area, houses a disproportionately large share of 
very poor and needy citizens. The District's overall poverty 
rate of 16 percent and the child poverty rate of 23 percent are 
among the worst in the Nation and more than three times the 
comparable rates across neighboring counties. Unlike other 
urban jurisdictions, the District cannot divert resources from 
wealthier suburban areas to serve its urban poor. Additionally, 
higher costs of service delivery further threaten the 
District's fiscal health. In this environment of continuing 
expenditure needs, the challenges posed by reduced revenue is 
substantial.
    The U.S. Congress plays an important role here, and I would 
like to briefly note two areas that merit continuous attention. 
Both go to the Federal preemption of the District's taxing 
authority.
    First, consider that 66 percent of the income earned in the 
District is earned by nonresidents, mostly commuters from the 
suburbs, and the District is prohibited from taxing it. Second, 
the District has an especially high concentration of nontaxable 
real property, much due to the presence of the Federal 
establishment. The Federal Government holds 39 percent of the 
land area of the District. Further, the congressionally imposed 
height limitation prevents the District from maximizing its 
limited land mass as a revenue source.
    Because of our inability to tap these resources, our 
residents must shoulder a disproportionate share of the cost of 
providing public services, while the benefits generated by the 
city's taxpayers are shared by a much larger non-taxpaying 
community.
    There is a looming danger here. The Nation's economic 
condition, combined with the District's high expenditure needs, 
raise the prospect that, should revenues drop significantly 
from already reduced levels, the District could be severely 
impaired. This stark reality must not be ignored.
    In conclusion, Mr. Chairman, I would like to thank you for 
your leadership of this committee and for its diligent, 
continuous oversight work on the District's finances during 
this difficult economic period. We look forward to continuing 
to work with you and the subcommittee during the forthcoming 
budget deliberations.
    Mr. Chairman, this concludes my oral remarks. I would like 
to request that my formal statement be included in the record. 
And I would be pleased to answer any questions you and other 
members may have. Thank you, sir.
    [The information follows:]

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Serrano. Thank you. And it will be submitted, as will 
the other two.
    Just two quick comments. We may be running into a difficult 
situation here. We have about five votes coming sooner rather 
than later, including a motion to recommit, which takes 15 
minutes of debate. So we may be talking about 45 minutes to an 
hour. It would be improper to ask you to wait for us that hour, 
so we will try to get as many questions in as possible. We will 
submit the other questions for the record. This should not be 
taken as any lack of respect for the District in any way, but 
asking you to stay here for an hour, as we try to kill each 
other on the floor, may be more of a disrespect.
    Also, I would like to acknowledge the presence of our 
leader in D.C., Eleanor Holmes Norton, who has joined us.
    And before you came in, Ms. Norton, all three members 
expressed their desire that you have full voting rights on 
behalf of the District. And that is a first.
    Mayor Fenty, I know that school reform is one of your top 
priorities, so I would like to start with that topic.
    Mayor Fenty. Okay.
    Mr. Serrano. The President's budget includes $62 million in 
Federal payments to improve the District's public and charter 
schools. This request comes on top of the $60 million this 
subcommittee provided in 2009 for the same purpose, which 
included a one-time payment of $20 million to jump-start school 
reform.
    How will you use these funds to improve the District's 
public and charter schools? And, in your view, what is the best 
way to measure improvement? In other words, how will you know 
if you are succeeding in improving the schools?
    Mayor Fenty. Thank you, Chairman Serrano.
    The additional dollars that will be provided can be broken 
down into about four buckets. First of all, there is $42 
million for the District of Columbia Public Schools, $20 
million for the charter schools, $12.2 million for the 
Opportunity Scholarships, and then $35.1 million for the 
heralded D.C. College Tuition Assistance Program, all of which 
are extremely important.
    The school system is broken down into two particular areas. 
One is $18 million for performance pay for DCPS teachers, 
something that the chancellor not only thinks is innovative but 
will be a real strong point of her complete reform.
    And then the remaining $24 million is broken down into such 
things as new science, technology, and engineering schools; 
gifted and talented programs, which have been neglected in the 
city for too many years; youth engagement programs; early 
childhood education; special education; partnership schools, 
where we work with private companies and management 
organizations to turn around chronically low-performing 
schools; and then the chancellor's comprehensive staffing model 
to make sure that the public schools have what successful 
private and public charter schools have, and that is arts, 
music, phys. ed, mental health support, social workers, in each 
and every school.
    Mr. Serrano. Yeah, that is an area that I wanted to quickly 
touch on. You know, during difficult times, it seems that the 
arts are always set aside. And while we know the importance of 
the ``three R's,'' there is a special effort being made, you 
say, to maintain arts programs in the schools.
    Mayor Fenty. There definitely is.
    One of the things that Mayor Michael Bloomberg from New 
York was most heralded in and didn't cost him as much as some 
of his other initiatives was to say we are going to have arts 
in every school in New York City. The chancellor had the same 
enthusiasm for that when she took over. And now, for the first 
time, we not only have arts in every school in the city but 
language and music, as well. And the dollars that the President 
has in his proposal would just go to build upon that.
    Mr. Serrano. And, Chairman Gray, do you wish to comment on 
the Mayor's efforts to reform and improve the District's 
charter school system? And, also, the whole issue of how we 
believe the system will gauge itself to find out what the 
success rate is.
    Mr. Gray. Well, thank you very much for the question.
    First of all, the Council enthusiastically supported this 
reform effort when the proposed legislation from the Mayor came 
before us early in 2007. We had an overwhelming vote in support 
of it. And one of the tangible examples, I think, of our 
support was to move education out of simply being a committee, 
in which several members participated, but we placed it into 
the committee of the whole, which engages now all 13 members in 
this effort. We have worked closely with the Mayor and with his 
team and with others who are concerned with education reform in 
the District of Columbia.
    One of the things that I alluded to in my testimony was the 
legislation that calls for an independent evaluation, which we 
now are moving towards effectuating. We have been delighted to 
have the cooperation of the National Research Council, the 
National Academy of Sciences. Not only are they going to assist 
us with an independent evaluation, but they actually are going 
to share 80 percent of the costs of that evaluation so that the 
city will pay very little.
    We will then have a set of criteria that will be 
established, which will be shared of course with the Mayor and 
others as we develop those. And then we will have an annual 
look at how we are doing, so that it will not be anecdotal, it 
will not be conjecture, it will be an independent entity that 
will look at these issues and will issue a report as to how we 
are doing in that regard.
    Mr. Serrano. Okay.
    You know, just one quick personal comment. A thousand years 
ago, when I first met Mrs. Norton, I worked for the New York 
City school system. And one of the things we did in those days, 
which I do not know if New York City still has or if Washington 
ever had, was the ability to take local artists who had a track 
record but, in some cases, did not have a college degree and 
certainly not a teaching license, and they were allowed to come 
into the classroom and participate in seminar-type workshops. 
And it wasn't just adding to the arts program, but it was 
bringing in names that the folks knew. And that is a way, at 
times, to kind of supplement. And D.C. is not short on talent; 
we know that.
    Let me touch on a subject here that everyone expects us to 
touch on, and that is the D.C. Opportunity Scholarship program, 
the federally funded program that provides vouchers to help 
some D.C. students attend private schools. On this, as in other 
D.C. matters, I believe in the principle of home rule and that 
Congress should be guided by decisions made by the duly elected 
officials of the District of Columbia.
    The 2009 Financial Services Appropriations Bill provided 
that the voucher program would continue beyond the next school 
year only if it is reauthorized through the normal 
congressional process and if that continuation is approved by 
legislation enacted by the District of Columbia Council. Now, 
President Obama is proposing that Federal support for the 
program be continued for those students currently in the 
program until they graduate but that no new students be added.
    So I think you said it, but I need to get in the record: 
Both of you do support the President's proposal, am I correct?
    Mayor Fenty. Yes, that is correct, Chairman Serrano.
    Mr. Serrano. Chairman Gray.
    Mr. Gray. Yes, that is correct.
    Mr. Serrano. Okay. We just wanted to make sure that that 
was on the record.
    And in view of the scheduling issue, I will hold up on some 
of my questions and give an opportunity for Mrs. Emerson.
    Mrs. Emerson. Thank you.
    I am going to continue, you all, if it is okay, with 
schools. And I am tremendously thrilled to hear about having 
art in all the schools, because it is a wonderful outlet for 
students and a great learning tool. The National Endowment for 
the Arts has had some wonderful programs using art to teach 
history and those sorts of programs. Not all children learn the 
same way, so I think it is a great addition to have.
    My question, probably to you, Mayor Fenty, and Chairman 
Gray, is, how many more years do you think additional Federal 
funding will be needed to implement the reforms you want to 
undertake in the schools?
    Mayor Fenty. Well, that is a fantastic question. And, you 
know, I think for the past couple years the Federal Government 
has supported not only the public school system but charter 
schools and then the Opportunity Scholarships, as well.
    We will get it done under any circumstance. But what the 
Federal dollars have allowed us to do--and if you look at some 
of the initiatives I listed, everything from gifted and 
talented programs to early childhood education, special 
education--is just to allow the chancellor to move even faster.
    And so I would say that, you know, we can get you an exact 
answer, if there is an exact answer, but I bet it is one of 
those things where the chancellor is a shrewd enough manager 
that, so long as the funding continues, she will put it to good 
use.
    I should answer Congressman Serrano's question, as well. I 
think that, were the chancellor sitting where I am sitting, she 
would say that you measure her performance based upon whether 
test scores are improving, graduation rates are going up, the 
dropout rate is going down, and the amount of kids going to 
college and finishing college is increasing--so, really, on 
objective measures of performance across the board.
    Mrs. Emerson. So, in essence, what the chancellor has done, 
or is doing, has put together metrics to measure, for example, 
how long it is going to take student achievement in D.C. public 
schools to be at the national average and those sorts of 
things?
    Mayor Fenty. Yeah. And I think, to connect both of the 
questions, I think the chancellor can show, you know, as we 
have tried to do--and we can get you more detail--what every 
single additional dollar received from the Federal Government 
will do to improve test scores, to improve graduation rates, to 
lower the dropout rate, so that--you know, obviously, Federal 
dollars are as scarce as local dollars, but to the extent that 
the Federal Government sees investing in the Nation's capital's 
education system as a priority, you know that it is money well 
spent from the American taxpayer.
    Mrs. Emerson. I don't disagree with that.
    The issue of violence in schools and violence in families 
and the issues that we read about in the newspapers are very 
troubling. And I know they happen in other schools and it is 
not just in D.C., but because we are talking about D.C., I want 
to raise it.
    You know, what kind of reforms might be necessary to, 
number one, address violence in the public schools, but also 
what measures--or how would you describe the process of what 
the city does to ensure that our children in the public schools 
are provided quick and accurate access to social services 
inquiries?
    Mayor Fenty. Well, let me just talk about the violence 
issue first.
    We approach it on both fronts. The chief of police is 
actually in charge of school security. She works closely with 
the chancellor. They both report to me. And we will be very 
candid, an overhaul of our entire security system was needed 
when we took over, and we are still moving in that direction. 
Everything from cameras to better metal detectors to shoring up 
the exits--there is story after story we could tell you about. 
So we are looking at it on the back end.
    Looking on the front end as well, the chancellor believes 
that a successfully run school that engages young people is 
probably the best way to reduce crime. You could pick any 
school, pick any private school that is successful, pick a 
charter school like KIPP or SEED, pick a public school like 
School Without Walls or Banneker, where the kids are 100 
percent engaged there, and you could probably take out all the 
metal detectors in all of those types of schools because the 
kids, you know, feel that there is a real connection between 
what they are doing and not getting into trouble. And I think 
that, ultimately, is where the chancellor is going.
    We have made a lot of social service advances. I mean, the 
Banita Jacks case, which highlighted the failure of the child 
welfare system to connect with the school system, is the 
biggest example. There is a lot more training for teachers to 
be that point of contact, advising when there may be some 
trouble at the home by some evidence they are seeing through 
the school system. I would be glad to get you more information 
on that so we can have a dialogue.
    Mrs. Emerson. I appreciate that. I have two more quick 
questions, the first of which is with regard to the D.C. 
Teaching Fellows Program----
    Mayor Fenty. Yes.
    Mrs. Emerson [continuing]. Which is tremendous, and really 
you have such a group of highly motivated and passionate young 
people, perhaps untrained educators, but they will learn it on 
the job. And I think there have been a few little glitches with 
the D.C. public school mentor piece to those fellows. And I 
would appreciate you looking into that.
    But my question is, what are the D.C. public schools doing 
to ensure that all of these young, passionate educators, or 
untrained albeit, what are you all doing to ensure that they 
will become quality educators as opposed to just giving you 
lots of extra bodies in the classroom?
    Mayor Fenty. Well, three things: training, training, and 
training.
    Really, the chancellor, through her 12 years leading the 
New Teacher Project understands, you know, that passion does 
not equate into ability. So we are using a lot of resources to 
make sure that they have all the resources needed and that the 
managers know the difference between an untrained and trained 
teacher.
    Obviously, there are still a lot of certification 
requirements in the District of Columbia Public School System. 
That is something that also guarantees that they have ability, 
but I think the right mix, the right mix of training, the right 
mix of making sure that there is adequate certification and you 
are going through all the different standards is what the 
chancellor is working on.
    And, listen, I think that everyone knows about the 
chancellor's landmark proposal to our teachers union. It calls 
for some of the most aggressive pay increases in the country. 
It would have teachers being able to make up into the $110,000, 
$120,000 range. We think that, just as in any other private-
sector organization, putting a carrot out there for teachers to 
go to is the best way to ensure that we have the most highly 
qualified teachers in the country here in our Nation's capital.
    Mrs. Emerson. I appreciate that.
    And then I must ask one more question with regard to the 
Opportunity Scholarship proposals. My time is not up yet----
    Mr. Serrano. No, no, no.
    Mrs. Emerson [continuing]. And I want to ask this.
    I want your opinion about the younger brothers and sisters 
of those current scholarship recipients and whether or not, 
until you have completed the reform process, whether you feel 
like the younger siblings should be allowed into the program.
    Mayor Fenty. I think that has tremendous merit, 
Congresswoman. And the administration would be welcome to talk 
to Congress or the Federal administration about that.
    I do think what President Obama has done has provided a 
great deal of--a tremendous public service to the city and to 
the kids in the system. Because before he made his statement, 
there was great uncertainty about not only the future of the 
program but what would happen, you know, just this year. So I 
know parents are relieved. I think it is a great foundation to 
figure out just how much stronger you make the program.
    And so we are open to it, and we would be glad to discuss 
it further.
    Mrs. Emerson. I appreciate that.
    Chairman Gray, would you concur in that?
    Mr. Gray. We would certainly be happy to have any 
discussions you would wish around this issue.
    I certainly, like the Mayor, am committed to having the 
strongest possible public education system we can have in the 
District of Columbia. Again, we focused a lot on that effort; 
we will continue to focus energy on that.
    And I say that not only as the Chair of the Council, but I 
also say that as a K-through-12 product of the public education 
system in the District of Columbia. And I certainly want to see 
it restored to the level of effectiveness that we have known it 
has had in the past.
    Mrs. Emerson. I appreciate that. Thank you.
    I am sorry that I have overstepped my time limit, Chairman.
    Mr. Serrano. No, no, no, you did not. You have no time 
limit.
    Mrs. Emerson. Oh, I don't? I am glad to know that from now 
on. I didn't know that.
    Mr. Serrano. When D.C. is here, you have no time limit.
    Mrs. Emerson. Especially since I was born in D.C.--not many 
people can claim that--at the old Sibley Hospital, when it was 
on Eye Street, Northwest. Mayor, you were not born at that 
time, but perhaps the rest of us--at least I was. 1950, what 
can I tell you?
    Mr. Serrano. 1950? That is when I came from Puerto Rico. So 
because of that, when D.C. is here, you have no time limit. 
Other times, we can discuss it.
    Just for the record, because while the committee was 
portrayed as killing the voucher program, this committee funded 
it until next June. So, technically, the program is still in 
operation until next June. It is after next June that decisions 
have to be made by the City Council and by the administration 
and by Congress.
    Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.
    Mayor Fenty, I have been in Congress for 18 years, but this 
is my first time on this subcommittee. So let me begin by 
saying I consider the District of Columbia to be a national 
treasure. And I want to thank you and Chairman Gray, Dr. 
Gandhi, and my friend and colleague with whom I came to 
Congress a number of years ago, Eleanor Holmes Norton, for 
being good stewards of this great community.
    Mayor Fenty. Thank you.
    Mr. Edwards. I salute your focus on education and 
addressing the needs of the homeless, and will not make my role 
on this subcommittee to try to micromanage the District, but 
hopefully be a partner in supporting the good things you are 
doing for the people of this community.
    On education, I might just ask, since really the question I 
was going to ask has been asked about measures of performance--
--
    Mayor Fenty. Yes.
    Mr. Edwards [continuing]. I might just add a footnote 
question to that. Do you have a sense of what would be a fair 
time frame by which to judge those measures of performance and 
the improvements being made? It is not fair to judge a football 
coach after a year, and an education system is far more 
important and complex than that. Would it be a 5-year time 
frame? Longer than that? Shorter than that? Any general sense?
    Mayor Fenty. Yeah, Congressman, the enabling legislation 
put a 5-year review period in it. It is not a sunset, but it is 
a time when the legislature is legally mandated to come back 
and look at the bill they passed which gave the Mayor the 
control over the school system. So that is pretty much what we 
went with.
    I remember, in our preparation for the takeover, we talked 
to Schools Chancellor Joel Klein, who talked about 5 years was 
the time when he was really starting to see significant 
increases in the test scores of the kids in the New York City 
school system, as well.
    Mr. Edwards. Great. Thank you for that.
    My only other comment would be, another hat I wear in 
Congress is to Chair the Veterans Appropriations Subcommittee. 
And there are, tonight, sadly, 154,000 homeless veterans on the 
streets of our country. And I would have to believe that a 
number of those are here in the District of Columbia, being in 
our Nation's capital.
    Mayor Fenty. Sure.
    Mr. Edwards. If there is any way we can work together to be 
partners to address the needs of homeless veterans in the 
District of Columbia, I hope our subcommittee could play a 
productive role with you.
    Thank you.
    Mayor Fenty. Thank you, Congressman.
    Mr. Edwards. Thank you very much.
    Thanks, Mr. Chairman.
    Mr. Serrano. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Good morning. Good to see you, Mr. Mayor. And this also is 
my first year on this subcommittee. And I am very delighted to 
be on here because, as Members of Congress, we all live here in 
Washington, D.C. Congresswoman Norton is my Representative, you 
are my Mayor. And I actually, in my last life, I worked for Ron 
Dellums, who chaired the District of Columbia Committee. My 
children went to D.C. public schools--Brent, Alice Deal, and 
Wilson.
    Mayor Fenty. Oh, wow.
    Ms. Lee. And so, it is really a pleasure to meet you. And I 
just have to salute you for everything that you are doing, 
because this is all of our city.
    Mayor Fenty. Thank you.
    Ms. Lee. So thank you.
    I remember when Ron chaired the District of Columbia 
Committee, part of his mission was to turn over the authority 
and jurisdiction, the fiscal authority, a home rule strategy, 
to make sure that the District residents had full 
representation and didn't actually have to come to Congress, 
you know, for the budget.
    And so I do support Congresswoman Norton's H.R. 1045, the 
District of Columbia Budget Autonomy Act of 2009, and H.R. 830, 
the Legislative Autonomy Act of 2009. Because I really am--I 
have believed this since the 1970s, that flexibility, D.C. 
autonomy, full voting representation, full voice in Congress 
would address the needs and concerns of the District residents 
that we all, in this country, believe should happen. And so, 
while this committee, though, until we get to that point, I am 
really delighted to be on this committee, to be able to support 
the District and its needs from Congress's vantage point.
    I wanted to ask you about the whole HIV and AIDS pandemic 
here in the District of Columbia. I come from Alameda County, 
Oakland, California, where we did declare a state of emergency 
in 1999. And I know you have mounted an effort here, ``go fast, 
go far, don't go it alone.'' You have a variety of initiatives 
on HIV and AIDS. I have worked with your representative to 
address it.
    Could you just paint a picture of what is going on and what 
you think we need do at the Federal level to support your 
efforts and to really begin to help turn this around? Because I 
think the District, unfortunately, probably has the highest 
incidence of HIV and AIDS in the entire country.
    Mayor Fenty. That is true.
    Ms. Lee. Largest African American population with it.
    Thank you very much. I am glad you are here.
    Mayor Fenty. Thank you, Congresswoman.
    We are touching this at every angle. For instance, I think 
we are the top-three jurisdiction in the country now in the 
distribution of condoms. Thanks to congressional action, we no 
longer have a prohibition on being able to use local dollars 
for a needle-sharing program. So we are addressing this. And we 
know some people, unfortunately, involve themselves in drug 
use, but we know that if we can get them a clean needle, it is 
not going to add insult to injury, where they are involved in 
drug use and then pick up HIV and AIDS along the way.
    The biggest thing that we are doing is transforming the 
District of Columbia into a jurisdiction where we just 
emphasize testing. Over the past year, we have increased the 
number of people who have been tested in our 600,000 city from 
40,000 to 70,000. You read the article in the Post which showed 
that the number of people with HIV/AIDS is now certified at 
around 3 percent. The numbers will actually probably go up for 
a while, as we test more people, but that is the point of our 
Department of Health's strategy. We want to know everyone who 
has the disease so that they can know their status, communicate 
it to others, not spread the disease, and get early treatment.
    If you ever get a second to read our report on heterosexual 
behavior that was just put out, first ever in the District of 
Columbia, it will make your jaw drop, because it has stories of 
heterosexual adults in the District of Columbia who don't know 
their status, don't know their partner's status, who themselves 
are engaging in extra-relationship sex, know their partner is 
engaging in extra-relationship sex, and don't know the status 
of any of the people who are engaged in any of those 
relationships.
    With that type of what can only be described as 
irresponsible behavior, we know that that is one of the root 
causes of why the disease is spreading. So we are going after 
it.
    Ms. Lee. Do you have the resources to go after it--Mr. 
Chairman, that is my final question--in terms of your budget, 
in terms of what type of resources do you need, or do you feel 
like you have the adequate resources to do the job.
    Mayor Fenty. I think that the combination of dollars 
received from the Federal Government and what we receive from 
our local taxpayer base is in the range. And then as additional 
grant dollars are made available, and I will get a supplemental 
through you to the committee Chair, about how extra dollars can 
help in our efforts. Obviously, as I told Congresswoman 
Emerson, we will make sure that each additional dollar is well-
tailored to the reduction of the HIV/AIDS rate. But a lot of 
what we are going to do is use those dollars to get out into 
communities where we can do a much better job of educating and 
testing.
    Ms. Lee. Thank you very much, Mr. Chairman. I look forward 
to reviewing it.
    Mayor Fenty. We will get that to you, Congresswoman, 
through the Chair.
    Mr. Serrano. Thank you. Two quick comments. Before you came 
in, in my opening statement I said I may be the only chairman 
in the history of Congress who wants to give up power. I don't 
want to oversee the District of Columbia.
    Ms. Lee. Let's work on that.
    Mr. Serrano. For giving up my power?
    Ms. Lee. We won't have a committee anymore if we do the 
right thing.
    Mr. Serrano. Just on that, just on that.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. I don't want you to 
give up your power, but if you give up jurisdiction over D.C. 
that is fine. There are plenty other things for you to handle, 
and the committee has a broad jurisdiction.
    But, Mr. Mayor, welcome. I have served a number of years 
ago as the ranking Democrat on this subcommittee so I am 
somewhat familiar with the issues at hand. But I did want to 
compliment you on the work that you are doing. I think you are 
providing extraordinary leadership here in the District on a 
range of issues. If you could update the committee on where you 
are in your school reform efforts, that would be I think useful 
to me in terms of the work that we are all engaged in. And I 
was out with you, I guess, maybe a year or two ago when the 
announcement was made to really ramp up college access and 
scholarship guarantees for young people. And so the foundation 
community has been supportive, but if you could just talk a few 
minutes about what is going on.
    Mayor Fenty. Working backwards, you can't emphasize enough 
what the President has proposed and what has been approved 
repeatedly out of this committee. The Tuition Assistance Grant 
Program, which allows more kids to go to college at the in-
state tuition rates, that just gives a great carrot for our 
kids moving through the system. But the Chancellor has the 
school system in a great place. After one and a half years, 
obviously, our hardest work is ahead of us. But in the first 
year we saw test scores go up about 10 percent, which as I 
mentioned was kind of where New York was after a few years. We 
hope to continue to increase that as we go toward that 5-year 
review period.
    We talked earlier about language, arts and music now being 
in each and every school. While dropout rates haven't reduced 
to where we want them, they have been reduced and graduation 
rates have gone up. And I think over the past 5, 10 years we 
have doubled the number of kids going to college. So a school 
system that when we took it over ranked at the bottom, still 
ranked pretty far down, is headed in the right direction.
    The Chancellor also has some very aggressive reform 
initiatives that she still is undergoing. We just this week 
announced six schools we are going to completely reconstitute. 
Everybody has to reapply for their jobs. I think four of them 
were some of our biggest high schools.
    These are the types of things that happen almost on a 
monthly basis by the schools' Chancellor. And then the pinnacle 
of all of our reform is our negotiations with the Washington 
Teachers Union. I think the Chancellor has put forward a 
proposal that will move school systems in this country ahead by 
decades, because what it says is that every teacher will get a 
huge increase in how much they are paid already. And then 
teachers who opt out of the tenure system, who just are going 
to allow the Chancellor to judge them on their own ability and 
whether or not they qualify, have the opportunity to receive 
pay increases of anywhere from say 20, 30, to $40,000 up to the 
point where teachers can make 105, 110, $115,000 a year. So it 
is a proposal that both protects teacher tenureship if you want 
and pays you more, or if you want to opt out of it allows you 
to go for astronomical dollars as a teacher.
    I think that is where school systems are headed. We are in 
the process of negotiating that with the Washington Teachers 
Union right now.
    Mr. Fattah. One thing I would say is, and I appreciate 
that, one of the things that has always interested me about the 
District is that you don't always have a one-company town here, 
you have the government and ancillary businesses. And there 
doesn't seem to be a focus, and maybe this is something we 
could work together on, on preparing young people for jobs with 
the Federal Government and really creating a pipeline. We have 
probably close to 40, 50 percent of the employees here in the 
Federal Government, all of this bureaucracy that exists in 
Washington, are baby boomers, they are going to be retiring. 
There is a real dearth of people to prepare themselves and 
position themselves to be able to follow into these job cycles 
in a variety of these departments. And D.C. is right here. And 
it would seem to be that maybe with the Obama administration 
and your leadership and maybe a hand by our committee that we 
could really kind of look at what the personnel needs are down 
the road, all of the classifications of jobs, and really create 
a pipeline that doesn't just take kids to college, but brings 
them home to D.C., into jobs that would pay well and in which 
they could also serve their country and help make a difference.
    Mayor Fenty. We would love to follow up with you on that. 
One of the things we are trying to do along those lines is I 
think we are going to have a thousand jobs in the Federal 
Government for our Summer Youth Employment Program this summer. 
The Obama administration has I think got a thousand set aside. 
And we would love to build on that for the entire school year, 
and then obviously when kids graduate from high school and 
college.
    Mr. Fattah. Thank you very much. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. Mayor Fenty and Chairman Gray, I 
don't want to put you at odds with the leader of the free 
world, President Obama. But my question is, the President in 
the amounts proposed for Federal payments to D.C., has his list 
of priorities. Are there any priorities you have that you would 
like to see added to what the President has requested? And here 
is the tough one. Are there any that you would suggest to the 
committee we should consider prior to considering one that the 
President has submitted where you say, look, if you have got 
$100 million, well, don't use it for this purpose that he has 
proposed, instead use it for this other purpose that we need?
    Mayor Fenty. The answer to the second question is no. I 
think if we had this amount of dollars that it would absolutely 
be this combination. I think it is the right proposal. There 
are a couple of things. I will actually submit a list to you 
which has kind of where we would go with additional dollars 
consistent with what we have had a conversation with other 
Congress people.
    One thing that does jump off the page though is the 
combined sewer-water problem with the Anacostia River. That is 
a $3.2 billion problem, as you know, Congressman. We have a 
river in the Anacostia that is as polluted as any in the 
country, and I do think we have a unique opportunity to show 
how a local government and the Federal Government could partner 
to turn that around. No one is going to be able to swim or fish 
in the Anacostia River for probably 35 years or so unless we 
make some investments now and really turn around Blue Plains.
    I think that is probably the one place that jumps off the 
page in terms of the real need for Federal dollars. But there 
is a little bit of a list that I will submit to the committee.
    Mr. Serrano. Okay. Thank you. We would appreciate that.
    Chairman Gray.
    Mr. Gray. Well, I would mention two things on both ends of 
the education spectrum. First of all, we appreciate the support 
of the President investing in prekindergarten services. The 
investments that the Council is making, the investments that 
the Mayor is making, the investments that the Obama 
administration has proposed will help to get us to where we are 
and where we need to be with services to all 3- and 4-year-
olds. But we need to make investments even earlier than that in 
the zero to 3 population. Certainly we have services now, but 
it would be wonderful if we could make a full commitment to all 
young people from the time of their birth until the time that 
they get into school.
    So that would be the first effort. And then on the other 
end of this, the University of District of Columbia. We are 
making Herculean efforts to move the university forward. As you 
heard earlier, the Council is helping to invest in a new 
student center. We are looking at some of the capital 
improvements there. We are supporting a community college. So I 
would love to see the administration help us with our own local 
university, our own State university, if you will, Mr. 
Chairman. And again, I appreciate the investments that they are 
making. So I don't have any quarrel with what they are doing at 
this stage, but it would be helpful if we could find ways to do 
more.
    Mr. Serrano. Just a note, the Corps of Engineers and NOAA 
have been very instrumental in my district in the Bronx in 
cleaning up the river, the Bronx River. Most people didn't even 
know we had a river in the Bronx. It didn't have banks on the 
side, it had cement. And now fish have returned and a beaver. 
For the first time in 200 years a beaver returned to the Bronx. 
Of course they named the beaver Jose, I don't know why. A 
change in times. Years ago it would have been Victor or Harry, 
right?
    A quick question. I want to comment to Mr. Fattah and Ms. 
Lee that we had decided that in view of the fact that the next 
series of votes will be a long vote that we would conclude and 
not to keep them around waiting an hour or so until we came 
back. Just very quickly.
    As you know, I have been vocally active to telling everyone 
that will listen that it is my intent to take more and more 
restrictions that Congress imposes on D.C. away from our 
legislation and from our bill, and we have done so.
    Mayor Fenty and Chairman Gray, anything that pops off the 
page on restrictions that you would like to see removed from 
Congress in addition to the obvious ones that we know about, 
the nonvoting and so on?
    Mayor Fenty. I think the big ones are the ones that were 
focused on. Obviously, I should say, for the record, that any 
restriction on our ability to spend our dollars for any reason 
we think is inappropriate. But the big ones are the measures 
surrounding guns and any type of social riders. I think that we 
respect each and every Congress person and their particular 
point and position, but we think that to hold back our voting 
rights legislation by putting a rider about gun rights on there 
is inappropriate.
    And I do just want to say that I think through your 
leadership, your predecessor, my predecessor, I think there has 
been an amazing advancement on this issue. Obviously there has 
to be a day, as I have said, where the residents of the 
District of Columbia have the same autonomy and independence 
and rights as every other American citizen. But I have been in 
this City a long time, been in this government now for about 10 
years, and the days when we were fighting riders every week and 
every month, which were not too long ago, seem to now have been 
long gone.
    So I just want to appreciate your leadership on that as 
well as the other four members here and the entire committee.
    Mr. Serrano. Thank you. Chairman Gray.
    Mr. Gray. Mr. Chairman, I would revert to the obvious, I 
guess. That is legislative and budget autonomy. The bills 
proposed by Congresswoman Norton would go a long ways towards, 
I think, honoring autonomy in the District of Columbia. It is a 
nightmare for us as legislators in the District of Columbia to 
deal with the reality of having to send bills here. We have 
this convoluted and complicated process in which in order to be 
able to accommodate the time involved we often have to do 
emergency legislation which lasts for 90 days, legislation that 
will be sometimes called gap fillers before legislation becomes 
effective because of the period of review here at the Congress, 
temporary legislation which has to be done to extend the 
emergency period. It really makes it very difficult. Obviously 
from the autonomy perspective we would like to have our 
legislation at the District level. But just in terms of being 
able to administer the legislative process, it is far more 
difficult.
    Budget autonomy, I think with 14 consecutive balanced 
budgets, we have amply demonstrated that we can manage our 
affairs in the District of Columbia, and we believe that ought 
to be honored as well.
    And then of course the issue of voting rights. It is very 
disappointing to sit here in 2009 and not be engaged in a 
celebration of having our outstanding Congresswoman Norton 
having a vote in this Congress and to have to face the prospect 
of a completely unrelated and frankly for me onerous and odious 
amendment being attached to the voting rights bill, now having 
once again slowed down the process for it.
    So if we took care of those three I think a lot of the 
other issues would be taken care of as a result.
    Mr. Serrano. Thank you. Mrs. Emerson.
    Mrs. Emerson. I am going ask Dr. Gandhi a question because 
I am feeling bad that you are just sitting there and listening.
    Mr. Gandhi. I don't mind.
    Mrs. Emerson. Well, that is all right. I will ask you a 
question anyway, Dr. Gandhi. Last year we learned that the D.C. 
Tax Office had issued millions, tens of millions of dollars in 
fraudulent tax rebates. And I understand that you have been 
working very, very hard on reform in the Tax Office. So I 
wonder if you could give us an update on your reforms, let us 
know whether or not this has impacted the City's bond rating, 
and if you are looking at things today do you believe that a 
fraud such as that which happened last year could occur today?
    Mr. Gandhi. Well, I will start--may I have the mic please? 
With the last question first, that it is quite unlikely that 
something like that would happen primarily because of the 
changes that we have made. The lesson that we have learned from 
that scandal, which incidentally was a dark professional hour 
for me personally, is that you have to be eternally vigilant. 
And eternal vigilance is not a cliche anymore for us in the 
District.
    So what we have done is to first, strengthen our internal 
controls so that we are absolutely sure that something like 
this would not happen again.
    Two, we appointed a new leadership after having fired the 
entire leadership. There are 100 less people working today in 
the Tax Office because of that. The new leadership encompasses 
a very distinguished group of people that are working with us.
    Three, we have an Audit Committee chaired by a former IRS 
Commissioner and members of the Security and Exchange 
Commission.
    Four, we have basically revamped our automated systems and 
we are in the process of getting a new system there.
    Five, and most important, is training. Training in ethical 
conduct, code of conduct training to make sure that people know 
what they are supposed to do, that they do that, and that there 
are things that they should not do.
    So more than anything else, changing the culture of our Tax 
Office in particular is very, very important, and we are 
engaged in doing that.
    Mrs. Emerson. I appreciate that. And I know it has been 
because you have paid very, very close attention with the Mayor 
and with the Chairman as well. How about has your bond rating 
been impacted at all by this?
    Mr. Gandhi. Not at all. Indeed, as you see here, we have 
received triple-A ratings now. And that is the highest you ever 
can go in a municipal jurisdiction. We are in the company of 
very few select municipalities around the country to have 
achieved a triple-A rating. I think what the Mayor and the 
Council Chair Gray and the rest of the Council have done is to 
give us the fiscal prudence and financially responsible 
budgeting. As I pointed out earlier, even in the face of a $800 
million decline in 2010 of revenues these leaders have produced 
a balanced budget, and maintained a rainy day fund among the 
highest in the country. We will have roughly $360 million in 
fund balance, include in what you see here, a $1.2 billion fund 
balance.
    This is a remarkable turnaround, as I pointed out in my 
testimony, that very few cities can match this level of 
financial performance and great credit goes to our elected 
leaders for that. We are indeed a shining city on the Hill in 
the financial market.
    Mrs. Emerson. And we could learn a good lesson from you. 
Thank you very much. Dr. Gandhi, thank you.
    Mr. Serrano. Well, we have a few minutes left so do you 
have a question?
    Ms. Lee. I just wanted to ask you very quickly about 
housing and the impact of the recession here in the District. I 
really have to applaud you on how you are addressing the 
homeless population here with your Housing First Initiative.
    Mayor Fenty. Thank you.
    Ms. Lee. Again, gentrification I know had occurred in the 
District of Columbia, like it has in Oakland and other cities. 
What is going on now in terms of the ability of people to hold 
on to their homes, speculators, and how the economic recovery 
package is assisting with your efforts here on housing?
    Mayor Fenty. That is a great question, Congresswoman. We 
were not nearly as impacted as other jurisdictions around 
foreclosures and other related housing problems. The biggest 
impact for us has been that when the economy was a little bit 
stronger and more housing was being built we tied our deed and 
recordation tax to our Housing Production Trust Fund. So we 
were probably getting maybe almost double the amount of money 
in for our Housing Production Trust Fund which we were using to 
build affordable housing in the City.
    So what we are doing now is trying to supplement that. The 
Federal Government is a huge part of this. I can't say enough 
about money that comes in through HUD to our DHCD housing 
community development. Almost every month I am at a new 
groundbreaking. Just yesterday we were breaking ground, doing 
ribbon cutting for some new housing for domestic violence 
victims who otherwise wouldn't have had this new housing.
    So the local dollars, the Federal Government partnership, 
the new Obama budget which proposes $20 million, before we got 
that money we would have probably just been able to have enough 
money to keep everyone we put into the new Housing First model, 
just keep them, so it would have just kept the number exactly 
what it is. Now we think we can do the exact same thing this 
year we did last year, which is add about 500 new individuals 
and families who are homeless into housing. So hopefully as you 
drive around the City you are seeing less homeless people on 
the streets. Those people are now in housing.
    Ms. Lee. Thank you very much.
    Mr. Serrano. Thank you. Just one final comment before we 
close. Last year we were very successful in getting the 
restriction done away with on D.C. being able to use local 
funds for a needle exchange program, syringes exchange program. 
We now have legislation with about 110 sponsors to lift the ban 
on the use of Federal funds throughout the country for these 
kinds of programs. So we are making some progress.
    Well, I want to thank the three of you for being here 
today. I want to thank you for your service to the District of 
Columbia. I want to thank you for your success in turning 
around a lot of things. That started some time before you, but 
as Dr. Gandhi said, some major changes have been made. I am 
sorry about the end of the hitting streak.
    Mrs. Emerson. The Caps too.
    Mr. Serrano. And the Caps. I am from Puerto Rico. The whole 
idea of ice, it is a tough thing. But I do want to thank you, 
and reiterate once again for the 100th time that it is my 
intention as chairman of this subcommittee to see to it that 
you have more and more and more autonomy and less restriction 
on being able to function as full citizens of this country.
    Mayor Fenty. Well, thank you for the quarter. I think that 
was huge. Congratulations on the Puerto Rico quarter. In our 
local budget process, the three of us I think thank our staff 
immensely. We should do that again here for the record while we 
are here on the Hill. Our staffs do all the work preparing 
these budgets. And then thank your staffs, the staffs of both 
you and Ranking Member Emerson, for working with us to get 
ready for this hearing.
    Mr. Serrano. So a friend from Puerto Rico calls me up and 
he says, Joe, we finally got a quarter, we Puerto Ricans, and 
now it is worth about $0.10.
    The hearing is adjourned.

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                             Tuesday, May 12, 2009.

                    GENERAL SERVICES ADMINISTRATION

                                WITNESS

PAUL PROUTY, ACTING ADMINISTRATOR OF GENERAL SERVICES
    Mr. Serrano. The committee will come to order. We welcome 
all of you to today's hearing.
    Now that the President's budget proposal for 2010 has 
arrived, we can begin our series of formal hearings on that 
proposal. Our hearing today is about the General Services 
Administration. Maybe it is fitting that we begin with GSA, 
since they provide the foundation for so much of what the 
Federal Government does.
    GSA is the Agency that helps make sure Federal workers have 
a place to work, with lights, heat, and with the computers, 
telephone equipment, and vehicles they need to do their job.
    In addition to the services GSA provides directly, it is 
also responsible for developing governmentwide policies in 
areas like procurement and information technology, in order to 
keep Federal practices up to date, fair, efficient, and 
transparent.
    A few months ago, we handed the GSA another large job. The 
American Recovery and Reinvestment Act appropriated almost $6 
billion to GSA, mostly for construction of new facilities and 
for renovation and modernization of old ones in order to create 
high-performance green buildings. Another part of the funding 
is for purchasing more energy efficient vehicles for the 
Federal fleet. The idea is to put people back to work, building 
things the country needs, while reducing energy consumption and 
environmental impact. The Recovery Act roughly tripled GSA's 
construction management workload, and we told them to get to 
work going as quickly as possible and to do innovative and 
cutting-edge things while they are at it. So today we want to 
hear how GSA is doing. We look forward to a progress report on 
implementation of the Recovery Act as well as explanation of 
the priorities that GSA and the administration are setting in 
the 2010 budget.
    Our witness today is Paul Prouty, the Acting Administrator 
of GSA. Mr. Prouty is one of those career public servants who 
do so much to keep the government running and those servants, I 
may add, that we care about and respect. He started with GSA 
more than 38 years ago as an intern in the real estate program.
    Since then, he had a variety of positions with the Public 
Buildings Service and has been regional administrator for the 
Rocky Mountain region. Along the way, Mr. Prouty has twice won 
the GSA Distinguished Service Award as well as the Presidential 
Meritorious Rank Award. He found himself as acting 
administrator just as the Recovery Act was enacted. Thus, it 
has been Mr. Prouty and his team of career professionals at GSA 
who have taken the lead in planning and launching the rather 
extraordinary effort called for by that legislation.
    And I have to tell you that there isn't a day that I don't 
go to the House floor as chairman of this subcommittee, as I am 
sure in your case, some member doesn't come up and speak to us 
about something you folks have something to do with back in 
their district, or that Federal courthouse that everybody needs 
more than anyone else in the Congress. In fact, I wish we had 
enough money just to get 435 courthouses.
    Mrs. Emerson. I actually just got one, Mr. Chairman. So you 
can take me off that list. So now it is 434.
    Mr. Serrano. So I have two districts that I represent, New 
York and Puerto Rico, maybe we can get one for Puerto Rico, the 
one that would have gone to you.
    And speaking of our ranking member, my dear colleague who 
is a great friend of GSA. She is very good at keeping tabs on 
Federal agencies, and I am very proud that she is our ranking 
member. And we will hear from her now.
    Mrs. Emerson. Thank you, Mr. Chairman.
    Thank you, too, Mr. Prouty, for appearing before our 
subcommittee today. And thanks for agreeing to be acting 
administrator until Ms. Johnson comes on board. Not only do we 
appreciate the fact that you have undertaken this huge job, but 
we really are grateful to you, given the fact that you could be 
in beautiful Denver, Colorado, instead of Washington, D.C. So I 
know you will be anxious at some point to go back to the real 
world, but thank you very much for what you are doing now in 
the meantime.
    And as the chairman mentioned, GSA is one of those agencies 
that our colleagues always talk to us about, but it is also one 
of those agencies that the general public may not understand, 
however it does touch the day-to-day workings of almost every 
Federal agency and Federal employee. And, I must admit, and 
most of you all know, that even before I was the ranking member 
of this subcommittee, I probably had more contact with GSA than 
any other Federal agency, perhaps the second, so perhaps some 
of the foreign service agencies would have been first. But I 
had more contact with you all because of construction and 
leasing issues in my own district, and I want to thank you for 
working with me on those.
    Even before Congress passed the fiscal year 2009 stimulus 
bill, the level of business that you all do is staggering. And 
it is really interesting, when you put it down and into 
perspective, managing a portfolio of almost 9,000 buildings and 
structures for Federal agencies that have a replacement value 
of over $68 billion, and overseeing the operation of 64 
national historic landmarks and two national historical sites 
and over $40 billion for goods and services for the Federal 
agencies, it is truly remarkable. And now as the chairman said, 
you have almost $6 billion of stimulus funds for construction 
and alteration projects that need to be spent quickly but in a 
transparent manner.
    And I think that you all have received the letter I sent to 
you asking some questions with regard to this funding, and I 
look forward to your written response and I won't go over any 
of that today. My questions will center around the stimulus 
funds as well as the fiscal year 2010 budget.
    I look forward to working with my chairman, Joe Serrano, to 
do my part and to ensure the oversight of the billions of 
taxpayer dollars managed by GSA. And I just want to ensure that 
the GSA is not spending because you all have lots of it, but 
that every dollar is used to improve the efficiency of the 
operation of the Federal Government. So thank you again so very 
much for being here today. I look forward to your testimony.
    Mr. Serrano. Two comments went up on FaceBook, one from the 
mayor of Denver, and another one from the mayor of D.C., since 
you told them you would rather be in Denver than in D.C.
    Mrs. Emerson. Are you doing your FaceBook now while I am 
talking?
    Mr. Serrano. I just figured this is happening. I have no 
proof. But if I was in D.C., I would have said something.
    Mrs. Emerson. Thank you.
    Mr. Serrano. We hope you keep your comments to 5 minutes. 
The full text of your statements will stay in the record. So we 
can begin and get to your questions. Welcome, Mr. Prouty.
    Mr. Prouty. Thank you, Chairman Serrano and Ranking Member 
Emerson. I am honored to appear before you today to support the 
budget. With your permission, I would like to provide an update 
of our efforts to implement the American Recovery and 
Reinvestment Act of 2009 as well. I have submitted a written 
statement, as you mentioned, for today's hearing, which I would 
appreciate being placed in the record.
    The President's 2010 budget request lays out a core group 
of key objectives for the administration, including several 
where GSA is uniquely positioned to deliver meaningful and 
lasting improvements. The President and Congress have together 
recognized numerous shortcomings in our national infrastructure 
and have identified investment in that infrastructure as a key 
to long-term economic growth and prosperity. Deliberate and 
well-planned investments in our infrastructure will stimulate 
economic growth, but they also represent a unique opportunity 
to begin the process of transforming our economy to one that is 
more energy independent and is powered by clean energy.
    The funds that the subcommittee provided to GSA in the 
Recovery Act and that we have requested in 2010 will allow GSA 
to begin the long-term process of delivering the President's 
vision. GSA's 2010 budget requests $645 million in net budget 
authority. This amount is just 2.4 percent of our total planned 
obligations of $27 billion dollars. The majority of our funds 
come in the form of customer reimbursements for goods purchased 
or rent paid for space under GSA's jurisdiction, custody, and 
control.
    For the Public Buildings Service, GSA requests $8.5 billion 
in new obligation authority. Of these funds, $658 million are 
requested for the construction and acquisition of critical 
facility projects for the Food and Drug Administration, the 
Federal Bureau of Investigation, U.S. Customs and Border 
Protection, and the Judiciary. We also request new obligational 
authority of $496 million to address the backlog of repairs and 
alterations projects. Although the funding provided in the 
Recovery Act gives GSA some relief from our substantial backlog 
of repair and alteration needs, our inventory of aging Federal 
buildings requires continued reinvestment.
    We also request $40 million for our energy and water 
retrofit and conservation program and our Federal high-
performance green buildings program to help address Federal 
requirements for energy conservation and reduced energy 
consumption in Federal buildings. These special emphasis 
programs will upgrade heating, ventilation, air conditioning, 
and lighting systems, install advanced metering, advance water 
conservation, support renewable energy projects, and many other 
items that will conserve energy in Federal buildings.
    The GSA Federal Acquisition Service is a leading 
acquisition organization for the Federal Government. Last year, 
revenues increased by 4.6 percent, making fiscal year 2008 the 
first year since 2004 that GSA has seen revenue growth across 
combined programs of FAS. FAS also realized a 2 percent 
increase in cash collections from our multiple awards schedule 
grants, and business with the Department of Defense, FAS's 
largest customer, increased by 3 percent in 2008. This business 
resurgence is the result of a concentrated effort to reduce 
operating costs, standardize the fees we charge our customers, 
and restructure our service offerings.
    Today, GSA and FAS are delivering value to our customers by 
offering products and services that meet or exceed their 
expectations. The future of FAS depends on investments in 
technology and continued process improvements. Short-term 
investments in information technology tools, such as business 
intelligence, will improve our ability to understand the buying 
patterns of FAS customers. Business intelligence will improve 
our ability to help customers make better procurement 
decisions, which will result in more efficient use of Federal 
funds and more effective government. Additional technology 
investments must also be made to FAS's legacy systems that are 
as much as 35 years old.
    As a leader in green government, GSA and FAS continue to 
actively encourage our Federal agency customers to consider the 
environmental impact of their acquisition decisions. For 
example, the GSA vehicle leasing program, GSA fleet, enables 
agencies to fulfill their missions and meet their guidelines by 
offering over 80,000 alternative fuel vehicles, AFVs, that are 
leased to customers to meet their transportation needs. The use 
of AFVs across the Federal Government helps to reduce petroleum 
consumption, introduces more efficient vehicles into the 
Federal fleet, and reduces greenhouse gas emissions.
    The American Recovery and Reinvestment Act has provided GSA 
with an unprecedented and exciting opportunity to contribute to 
our Nation's economic recovery by investing in green 
technologies and reinvesting in our public buildings. The 
Recovery Act provided GSA's Public Buildings Service with $5.55 
billion, including $1.05 billion for Federal buildings and U.S. 
courthouses, and land ports of entry, and $4.5 billion to 
convert Federal buildings into high-performance green 
buildings.
    These funds will provide many benefits. First, the money 
will help the Federal Government reduce energy and water 
consumption, and improve the environmental performance of the 
Federal inventory of real property assets.
    Second, much of the funds provided will be invested in the 
existing infrastructure, which will help to reduce our backlog 
of repair and alteration needs.
    Third, the funds provided for new construction will reduce 
our reliance on costly operating leases by providing more 
government-owned solutions to meet the space requirements of 
our customers.
    Finally, we will stimulate job growth in the construction 
and real estate sectors and drive long-term improvements in 
energy-efficient technologies, alternative energy solutions, 
and green building technologies.
    We are moving forward with speed, tempered by careful 
consideration of our procurement responsibilities and our 
ultimate accountability to the taxpayer.
    On March 31, GSA provided to Congress a list of 254 
projects in all 50 States, the District of Columbia, and two 
U.S. territories, to be completed with funds provided by the 
Recovery Act. GSA selected the best projects for accomplishing 
the goals of the Recovery Act based on a detailed analysis of a 
number of factors. Our goal in developing this list were both 
to put people back to work and work quickly and increase the 
sustainability of our buildings.
    The Recovery Act provided GSA's Federal Acquisition Service 
with $300 million to replace motor vehicles across the Federal 
agencies with those that are new and more efficient. GSA's 
strategy to improve the energy efficiency of the Federal fleet 
balances energy efficiency goals with the need to expedite 
procurement in order to maximize economic benefit for the auto 
industry and the economy as a whole. GSA is focusing this 
procurement on vehicles that will provide long-term 
environmental benefits and cost savings by increasing the fuel 
efficiency of the Federal fleet.
    On April 14, 2009, GSA obligated $77 million to order 3,100 
hybrid vehicles for Federal agencies using Recovery Act funds. 
This purchase represents the largest one-time procurement of 
hybrid vehicles for the Federal fleet. GSA will place orders 
for an additional $208 million of commercially available, fuel 
efficient vehicles by June 1, 2009. This will provide for the 
acquisition of approximately 17,600 vehicles. In the final 
phase of this procurement, GSA will order $15 million worth of 
compressed natural gas and hybrid buses and low-speed electric 
vehicles by September 30, 2009.
    While this is the smallest segment of the plan, we are 
excited by the fact that the vehicles purchased will be 
replacing some of the highest-emission vehicles in the Federal 
fleet, with much lower-emission vehicles that will reduce fuel 
consumption and further the Federal Government's exploration of 
the use of alternative fuels.
    Today, I have discussed our fiscal year 2010 budget 
request, the Recovery Act, and GSA's eagerness to undertake the 
new challenges that lie ahead. We at GSA are strongly committed 
to ensuring that the responsibilities entrusted to us are 
exercised and managed in an effective, efficient, and 
transparent manner. The task of everyone at GSA is to keep 
building on our recent successes and fulfill GSA's mission to 
acquire the best value for taxpayers and our Federal customers, 
while exercising responsible asset management.
    Your approval of GSA's budget request for 2010 is a vital 
step in helping us achieve our mutual goals of economic 
recovery, energy efficiency, and increased citizen engagement 
in government. GSA is committed to delivering on these goals, 
contributing to the long-term objectives of the administration, 
and providing the best use of the taxpayer funds. I look 
forward to continuing this discussion of our 2010 budget 
request with you and members of this committee. Thank you.
    [The information follows:]

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Serrano. Thank you. Thank you for your testimony.
    One of the ongoing issues for GSA's budget has been the 
question of leasing versus direct Federal construction. A 
couple years ago, GAO studied that question, and concluded that 
leasing is often more expensive for the government in the long 
run. Your budget suggests that the administration agrees with 
that view. The budget requests funds to construct two new 
courthouses that I believe had originally been planned for 
build-to-suit leases. Similarly, the GSA's plan for use of the 
Recovery Act funds also calls for constructing two other 
courthouses instead of entering into leasing arrangements.
    What factors does GSA take into account in deciding whether 
a particular facility need should be met through direct Federal 
construction or through leasing? Should we expect to see a 
continued shift to construction instead of build-to-suit leases 
in future budget proposals?
    Mr. Prouty. We agree that there is a need for more Federal 
construction, and we analyze each of our projects based on the 
best approach. And oftentimes, many of our projects are very 
small projects; oftentimes, the needs are short-term. So we 
think a leasing solution is more practical. However, for 
special needs, long-term needs in a major market, we think 
Federal construction certainly is a viable alternative, and we 
do the analysis. Also, it does depend on the availability of 
funding.
    So our desire, as you mentioned, is for projects that have 
been moved from lease construction to Federal construction, and 
we hope to see more of that in the future.
    Mr. Serrano. Is that an ongoing discussion, if you will, 
within GSA as to which is better? Obviously, there must be 
different opinions on the best way to handle this.
    Mr. Prouty. I think there is differing opinions on the 
margin, but certainly at some extremes government ownership 
makes most sense and on the smaller projects in rural areas 
lease solutions. So when you get to the middle margin markets, 
there is a conversation about which is best. We always test 
them against an analysis on whether or not they should be 
Federal or leased, and we determine what funds are available.
    Mr. Serrano. And when you go into the various communities 
throughout the Nation, do you tend to get a sense from those 
folks there, local authorities, that they want new construction 
or they want--I would imagine in this climate, and it just 
occurs to me where some folks are closing down, there might be 
available real estate and you might see a push for repairs to 
make it available as a lease. Do you see any of that, or 
traditionally do you see local folks wanting to use their local 
real estate or building something new?
    Mr. Prouty. We certainly do. That real estate is generally 
not available for special purpose needs such as laboratories, 
courthouses, and the like. But you are right, in a market like 
this, there is a great deal of pressure to use the existing 
infrastructure.
    Mr. Serrano. On a related issue, this year's budget 
requests $100 million to exercise an option to purchase the 
Columbia Plaza Building in Foggy Bottom which GSA has been 
leasing for use by the State. The budget justifications 
indicate that the purchase would be financially advantageous to 
the government. How common is this situation? Is GSA able to 
take advantage of all such opportunities, or are there options 
to purchase that are not being exercised because of a lack of 
funds? I am also wondering why the purchase funds for Columbia 
Plaza are included in the 2010 budget since the lease does not 
expire until 2012?
    Mr. Prouty. There are actually very few opportunities to do 
this because of the scorekeeping requirements. We would prefer 
to be able to find more opportunities which we know we can 
negotiate with.
    You are right, this is a very attractive deal for the 
government, and our people negotiated a wonderful opportunity 
and we hope to be able to exercise that purchase option.
    When you talk about why we want to exercise it now if we 
are not going to continue to be in the space if the lease 
expires, we have to plan in advance on what we are going to do. 
So we need to make a decision now in anticipation of what 
action we are going to take in 2012.
    Mr. Serrano. Mrs. Emerson.
    Mrs. Emerson. Thanks, Mr. Chairman.
    Let me follow up on this courthouse issue, if I could. I 
know you are aware of the Judicial Conference of the United 
States and their priority list for construction of new 
courthouses by GSA. And believe me, having been at the bottom 
of the list and worked my way up, it was nice to get to the 
top.
    Now, for years, we as a committee have had to rely on that 
list when making funding decisions, and then tried to instill 
patience with members like me whose courthouses at one time 
were a lower priority.
    So that the current priority list for 2009 is Austin, Salt 
Lake City, Savannah, San Antonio, and Mobile. But first in the 
stimulus spend plan and now in the fiscal year 2010 budget 
request, that priority list has been ignored, and four 
different courthouses have been designated as a priority by 
GSA.
    So I guess what I am confused about, and maybe you can help 
explain, is why the GSA has selected four courthouses to begin 
construction in 2009 and 2010 that aren't on the priority list. 
And does that Judicial Conference list no longer have any 
bearing on your decisionmaking with regard to new courthouse 
construction? And if that is the case, then do you ever expect 
to get back to the Judicial Conferences list?
    Mr. Prouty. We do expect to get back to the list. And it is 
a very high priority of mine, as you can imagine, because the 
Salt Lake City building is in the region I expect to go back 
to; and if it doesn't ultimately get funded, I probably can't 
go back.
    As far as the four projects, they are unique because they 
were lease opportunities that were there at the time when the 
decision was made that we could--we had available funds and we 
could do government construction. But we are going to go back 
to original list starting with Salt Lake City.
    So the two that are in the 2010 budget are smaller 
projects. There has to be a decision when we are about to go 
out and do a leasing action. The time was now, and we made a 
decision for Federal construction.
    Mrs. Emerson. So then, in the meantime, the Chairman and I 
will be yelled at by our colleagues because they didn't make 
the list this year. But, so you are telling me we can assure 
them that the next round they will be back at the top of the 
list again?
    Mr. Prouty. This is my favorite part of the job. I get to 
assure you for somebody else's tenure here. But with the Salt 
Lake City city project----
    Mrs. Emerson. But we will make sure to ask her.
    Mr. Serrano. And we will tell her you said so.
    Mr. Prouty. Yeah. I will call her as soon as I leave.
    Mrs. Emerson. I know OMB makes these decisions, but nobody 
ever bothers to consult with the Congress on--at least, I don't 
believe we were ever consulted about that policy change. But it 
does put us in a little bit of an awkward position, you have to 
understand, given the fact that we have to be the bad guys even 
though we always try to make OMB be the bad guy. But I will 
hope that is something you do pass on to Ms. Johnson.
    Let me turn to the Homeland Security consolidation at St. 
Elizabeths, if I could, please. You all did not request funds 
in fiscal year 2010 for DHS consolidation at the St. Elizabeths 
campus in D.C. $450 million was provided in the Stimulus Act 
and $347 million in fiscal year 2009 omnibus.
    So given the fact that was the administration's top 
priority for GSA in past years, can you explain why there were 
no funds requested in 2010? And then I will tell you, because 
here is my fear, that you will use the stimulus funds in 2009 
and the fiscal year 2009 funds in 2010, and not using the 
stimulus monies to supplement or accelerate construction and 
create new jobs, which kind of defeats the purpose of you 
saying you wanted to put people back to work.
    So, anyway, if you can confirm if that is correct, and then 
give us a status of the construction at St. Elizabeths, I would 
be grateful.
    Mr. Prouty. I don't have a clue what this says. Hold on 
just a second.
    You can see we have got the wrong guy talking here, but 
nonetheless, I will do my very best. It is because of the 
enormity of the St. Elizabeths project that we had to break it 
out in two different projects, if that answers the question.
    Mrs. Emerson. Two separate projects?
    Mr. Prouty. Well, two separate funding opportunities.
    Mrs. Emerson. So we have the 2009 omnibus, we have the 
stimulus funds. Are we going to be done then? We don't need 
funds in--
    Mr. Prouty. We are not going to be done. There is two 
different fundings to date, and obviously there is going to be 
more in--we are going to have to provide additional information 
for the record.
    Mrs. Emerson. If you would. Because it is a little 
troubling that you wouldn't have--because this has been the 
administration's top priority, that funds wouldn't have been 
requested for 2010. And we are happy to wait and get that for 
the record, if you don't mind. But I just get concerned, given 
the fact that we are supposed to be creating new jobs and not 
just maintain the ones that we already have.
    Mr. Prouty. I think there will be new jobs. Every dollar 
that we spend on a project is going to create new jobs. I 
understand your concern, that that was an existing project. 
But, nonetheless, all the money is going to work toward putting 
people back to work on job sites.
    Mrs. Emerson. But the fact that we didn't ask any for 2010 
is troublesome.
    Mr. Prouty. Got it.
    Mrs. Emerson. So I appreciate that.
    Am I finished with my 5 minutes, Mr. Serrano?
    Mr. Serrano. You can take longer, if you want. We are 
overcrowded by staff members. And if we weren't, we would only 
sound better.
    I just want to comment on the fact that our sense in our 
office is that with the St. Elizabeths project there might be 
enough money in the can now for the current phase, and that 
moving on to another phase may be a little too much right now. 
That may be the reason.
    But you are right, this was the one thing I heard from the 
minute this committee was reactivated, was St. Elizabeths, St. 
Elizabeths. So it is kind of a little strange not to see a 
request, we think. I lean to my right, which I rarely do----
    Mrs. Emerson. I thought you meant Eileen, and that is not 
Eileen.
    Mr. Serrano. But that is what we think it is. It is one 
phase ready, and then waiting for the second one to take place.
    Mrs. Emerson. Okay. Let's switch subjects. And I am sorry, 
because I know you are not taking any of this personally. Are 
you?
    Mr. Prouty. Not at all.
    Mrs. Emerson. Thank you.
    Mr. Prouty. I wouldn't be in this job if that were the 
case.
    Mrs. Emerson. And let's switch topics to border points of 
entry.
    Mr. Prouty. Ready.
    Mrs. Emerson. I do want to address the issue of the border 
with our neighbors and the land ports of entry.
    I understand that GSA owns and maintains almost 100 of 
these land ports, and that for the most part the Department of 
Homeland Security is the sole occupant. Obviously, most ports 
of entry were designed for commerce, not security. And, in 
addition, many of the larger ports of entry are far exceeding 
their designed capacity due to the growth in freight and 
development around the ports.
    So my question--I have several questions. I will ask a 
couple and then you can answer, and then I will ask a couple 
more.
    In the fiscal year 2009 appropriations Act, GSA is directed 
to include in its budget submission a detailed five-year plan 
for land port of entry projects. I realize that we just enacted 
the omnibus, but can you tell me when, number one, we expect to 
receive that report? And then, how do you all go about 
coordinating your priorities with DHS's priorities? And does a 
priority list even exist from within the Department of Homeland 
Security?
    Mr. Prouty. It does exist, and we are working with them. 
And it changes because of different needs and projects, but we 
are going to be doing a 5-year list. We are working it. As soon 
as we work with them to figure out exactly what that looks 
like, what their priorities are, how we are able to deliver 
those, we will provide it. Unfortunately, I can't give you the 
date.
    Mrs. Emerson. How about the report, the 5-year plan from 
GSA for the land port of entry projects? You were actually 
directed to include a report to us. Do you know when we might 
be receiving that?
    Mr. Prouty. In the coming weeks.
    Mrs. Emerson. What are your thoughts on transferring 
ownership and maintenance responsibility to the Department of 
Homeland Security for the ports of entry, and just so that you 
may be able to create some construction and operational 
efficiencies?
    Mr. Prouty. They are very challenging projects. They are 
challenging, obviously from an operational standpoint from 
their purposes and from a construction standpoint from ours. 
But I don't think anybody is better suited than we are. It 
takes all that we have got to be able to design and construct 
those. And I believe, even though they are terribly expensive 
and terribly challenging, we are the people to do it.
    Mrs. Emerson. Has DHS asked you for that?
    Mr. Prouty. Over the years they have. And I think--I am not 
sure, because I haven't had discussion at the national level. 
But I know that their core mission is to run the border 
station, and ours is to construct. And I just think they would 
have to create what we have got, and I don't think that would 
be remotely efficient.
    Mrs. Emerson. I just have one more question to ask with 
regard to the ports of entry. I guess there are about 20 
private ports of entry that private owners maintain. Is that 
correct, about 20 of them?
    Mr. Prouty. I know so very little about this. There are 20 
at least.
    Mrs. Emerson. Here is what I am curious about. How do you 
all negotiate with private owners? I am just curious about how 
that works.
    Mr. Prouty. I will give you generally what happens, is we 
would option the sites, so we would have a site available. And 
then we would put it out to bid, and anybody who wanted who 
could get it funded, who could build it, we would pay long-term 
rent for the facility. We do that in other locations, not just 
on the border. So you have to acquire a site, and it becomes a 
real estate deal.
    Mrs. Emerson. But do they maintain those after you have 
done the----
    Mr. Prouty. Generally, they would. I am not sure from a 
border standpoint, but it is part of the deal, I would assume.
    Mrs. Emerson. Thank you so much.
    Mr. Serrano. Let me try to clarify that, because that one 
makes me nervous. Private, meaning that someone privately owns 
the land. Then the government leases it from them. Right? You 
don't have private individuals at the border saying you can't 
cross or you can cross. Right?
    Mr. Prouty. No.
    Mr. Serrano. Thinking back in junior high school, when some 
kid wanted a nickel to let you cross.
    Mr. Prouty. Maybe a side business, but that is not what I 
am proposing. Just that we create a site and we do a real 
estate deal on the site.
    Mr. Serrano. The government----
    Mr. Prouty. It is the same process.
    Mrs. Emerson. But the private owner just maintains and 
keeps it up.
    Mr. Serrano. Sure. I don't have a problem with that. I just 
don't want him to determine who comes into the country and who 
doesn't come into the country.
    Mrs. Emerson. That would be a good soft place to come 
through probably. Right?
    Mr. Serrano. Well, if I was running it. But then my views 
on immigration are well known.
    When we spoke about the 5-year plan, my understanding is 
that you were directing the port of entry part of the plan. But 
that was one part of the larger plan, which is my next 
question, which is, is this a separate report you will be 
giving us, or is it a full report as to the whole construction?
    Mr. Prouty. In a few weeks, I am going to look and make 
sure.
    Mr. Serrano. A few weeks.
    Mr. Prouty. Yes.
    Mr. Serrano. GSA's budget proposal calls for a 5 percent 
increase in the amount you pay in rent for leased space 
compared to a 2 percent increase in the projected amount of 
space under lease. Why the apparent increase in rental cost per 
square foot? I think that in today's real estate market, GSA 
would be able to get some pretty good deals. Why should rent 
costs be rising at all?
    Mr. Prouty. At the time those numbers were created, they 
were going up. Our rent costs were not going up at that time. 
They were going up less than the market was going up. We can 
certainly expect when we are back here talking about 2010 they 
are going to go down. But we know it is going to negotiate 
below the market. So at the time we were doing that, we were 
below the market; the market was going up. But as you 
mentioned, the market is going to turn and go down.
    Mr. Serrano. Another thought I just had. Does that play a 
role, what area you are in, in terms of deciding whether it is 
better to lease or to rent? I would think--and I don't want to 
game the wrath of the Manhattan property owners. But renting in 
a place like that would be--leasing would be ridiculous, the 
amount. So I wonder if it is cheaper to build.
    Mr. Prouty. The analysis is always based on a specific 
market. So what the cost of construction is versus what the 
lease market would provide.
    Mr. Serrano. Lower Manhattan, it might come out better to 
build than to rent.
    Mr. Prouty. It might. But land is expensive, construction 
is expensive. So it could be a wash.
    Mr. Serrano. In other words, nothing is cheap in New York. 
Is that right?
    Mr. Prouty. You said that. I didn't.
    Mr. Serrano. On the land and ports of entry issue, there 
are some negotiations, I understand, or discussions that 
usually take place with the Customs and Border Protection 
Agency about the best way to build these things and how quickly 
they can get off the ground. Can you tell us anything about 
those discussions?
    Mr. Prouty. If you are referring to they have requirements. 
So what we are trying to do is to make sure we work with them 
in order to provide what they need within the most efficient 
manner so that we can provide these as quickly as we possibly 
can. So if there is any benefit, in some cases we are doing. 
For some of the requirements that can be standardized, we will 
do one spec so we can use it in more than one border station. 
So anything we can do to expedite the process.
    Mr. Serrano. Now, of course, much of this work is being 
done while these areas are still active, if you will.
    Mr. Prouty. Right.
    Mr. Serrano. Any complaints from them?
    Mr. Prouty. I am sure there are. Any time we do any 
construction project around an occupied space, there is always 
challenges to keep it going, even if it is a building with 
renovating ground tenants. So I am sure each one probably has 
their own particular challenges.
    Mr. Serrano. Let's move on to the well-publicized Recovery 
Act. Where do you stand in awarding contracts and starting work 
on the construction and renovation projects funded under the 
American Recovery and Reinvestment Act? Roughly, how many 
contracts have been awarded so far? How much work do you expect 
to have under way this summer? And, as you know, we are going 
to hear more and more and more from the media, from Members of 
Congress, from anybody: We give out all this money, and when 
will we begin to see action, to the point where we can begin to 
measure whether it is having an effect on the economy?
    Mr. Prouty. As of May 1, we have awarded five projects for 
roughly $100 million. By August, we are going to award $1 
billion. By the end of December, we are going to award $1 
billion more. In the next 3 months after that, we are going to 
award $2 billion more.
    Mr. Serrano. And how confident are you that that schedule 
will stay in place?
    Mr. Prouty. We are very confident.
    Mr. Serrano. And these contracts are mostly for 
renovations, of course.
    Mr. Prouty. The $4.5 billion green part of that is. Yes.
    Mr. Serrano. As a result of the Recovery Act, the workload 
of GSA's construction managers have probably at least tripled. 
We are asking GSA to run a construction program considerably 
larger than your regular annual capital program, to do that 
while also continuing your regular annual program, and to keep 
everything on a very tight schedule.
    What are you doing to make sure you have enough skilled 
personnel to plan these projects, award contracts, and monitor 
the performance? Do you have all the authorities you need to 
accomplish this goal, such as the authority to hire people 
quickly or to bring back retirees?
    Mr. Prouty. Yes, we believe we do. There is a variety of 
means we are using. First is to recruit people, generally 
temporary people. Second is to bring back retirees. We just got 
approval from OPM to be able to pay them the dual salary. And 
then we are also working with contracting vehicles, to have 
employees do that type of work available to us on contracting 
the work primarily with FAS available to all people.
    Is it a challenge? Absolutely. But we are comfortable, more 
comfortable today than before, because some of those 
authorities just came through this week.
    Mr. Serrano. And you say you have the authority for dual 
salary situations? These are retirees which are pension 
already?
    Mr. Prouty. Yes, we do. Which it was absolutely critical.
    Mr. Serrano. Before I go on with my question, we have been 
joined by Mr. Schiff, who is not going to ask any questions 
about courthouses. And if you believe that, I have a courthouse 
I can sell you in Brooklyn. Mr. Schiff.
    Mr. Schiff. Well, I wasn't going to, Mr. Chairman. But 
since you asked.
    The courts and GSA have studied numerous options for 
housing the courts in Los Angeles for now over 15 years. And 
the Central District Courthouse in Los Angeles has been the 
judiciary's number one priority courthouse for several years. 
Finally, Congress, the courts, and GSA agreed on a solution, 
and Congress provided $365 million to build a courthouse in Los 
Angeles. The design was refined numerous times to keep the 
project under budget, but as under the last administration GSA 
delayed and the cost of the project has now increased to at 
least $875 million.
    We, the L.A. delegation, are having a very difficult time 
understanding what GSA is doing on this, and coping with the 
increased costs as the delay has gone on and on and on year 
after year now in its second decade. While this project has 
languished, the costs have escalated by over $500 million. 
There are serious security problems in Los Angeles. There is 
not enough properly configured space to ensure effective 
operations there. I have worked in that courthouse for 6 years, 
and they have to transport the inmates in the same elevators 
with the jurors, in the same elevators with the judges. The 
bottom line is that there is a pretty desperate need in Los 
Angeles. We are still at a standstill 15 years later.
    I know the Agency will be under new management once the 
administration is confirmed. I would ask GSA to take a fresh 
look at this based on the serious need and the facts on the 
ground. I would like the new GSA administration to make a 
commitment to finding a solution and funding a housing plan for 
the central district that meets the court security and 
operational needs.
    We appreciate the work the chairman has done to protect the 
funding provided to date for the L.A. project. We are adamant 
that it not be used for any other purpose without the approval 
of the committee. Again, I want to thank Mr. Chairman for that. 
But I would love to hear, if you can shed any light on this and 
provide us with a road forward. We need a roadmap for this as 
much as we do for the Middle East.
    Mr. Prouty. My normal job is in Denver. And because we have 
Montana, I attend the Ninth Circuit space meetings, so I have 
heard about this project for a very long time, and it is quite 
unfortunate and it is certainly a challenge. And I know there 
are issues having to do with the funding and the requirements 
and the different alternatives for housing the court.
    I, more than probably anybody else, just so I don't have to 
go through that process too many more times, would love to see 
a solution. I certainly will commit to you that we will 
continue to work with them. I know they feel very strongly 
about the large building solution. I am not sure how that gets 
funded, but we have to continue to work because you are 
absolutely right, there is definitely a need.
    Mr. Schiff. We should really make every effort this year to 
come up with a final agreement on this, if we can all follow 
through, and make sure we get the resources in the budget. It 
just has to get done.
    Mr. Prouty. We would very much like to do so.
    Mr. Schiff. One other issue I would like to ask about, Mr. 
Chairman. Every year the Federal Government spends a great deal 
of money purchasing energy. Many of my constituents, local 
businesses and local governments, have lowered their energy 
bills by installing solar panels on their buildings or nearby. 
In many cases, the consumer doesn't even have to pay for the 
capital investments, and a solar installation company buys and 
installs the system, and then sells the power to the consumer 
at an agreed-upon rate.
    This is a model that I think could be very successful for 
the Federal Government as well, but GSA is currently limited to 
signing ten-year power purchasing agreements, which are not 
long enough for installers to recoup their investment.
    GSA asked Congress last year for authority to sign a 30-
year power purchase agreement for renewable energy, and I 
introduced a bill that would authorize that change.
    Can you shed some light on how that authority would save 
the Federal Government money overall and how this authority 
would improve your ability to install local renewable energy 
near GSA buildings?
    And just, Mr. Chairman, so you have the full picture. The 
problem we are having with the bill is the way that the CBO 
does their projections. If you buy energy every year on an 
annual basis, it is not mandatory spending and then it doesn't 
get scored. But if you buy it over long-term periods such as 30 
years, even though it may be costing you less every year, it 
becomes subject to scoring. They score the cost of it, they 
don't score the benefits of it. So the cost of the bill, which 
really doesn't cost anything, they score at about $2 billion. 
So because of this sort of bureaucratic problem, we can't get 
the GSA to invest in solar the way I think they would like to.
    Can you shed some light on it?
    Mr. Prouty. You are absolutely right: Unless you can sign a 
longer term deal than 10 years, they can't afford to invest, 
and we can't get the return. So we have to have a vehicle that 
allows us to do 20 or 30 years, and markets available and 
financing available and benefits are there.
    Mr. Schiff. We will continue working on it. I have talked 
with the budget chairman and as well as the Chair of Energy and 
Commerce. We would like to find a way around this, because it 
is cost savings. The government will sell you power derived 
from solar at a price cheaper than you are paying for it now, 
and it is a lot cleaner to do it.
    Mrs. Emerson. Can I ask a question?
    So are you for contracting out the cost of the energy from 
the solar? You can forward contracting out 20 or 30 years?
    Mr. Schiff. As I understand it, what the companies would 
agree to do, they would install the solar, they would provide 
you power for your building, and they would say: We will 
provide power to your building at X price over the next 30 
years, as long as you agree to buy from us over the next 30 
years. And that price point is cheaper than----
    Mrs. Emerson. It is the same support contract. I didn't 
know we were allowed to do that. It does make really good 
sense. It is what lots of large companies do with the power 
companies, just because they are such big energy users, are 
getting a lot better deal at a much lower price. But it is that 
commitment over the long term.
    Mr. Schiff. My understanding--and correct me if I am wrong. 
You have the authority to do that up to 10 years. It is that 
you can't go beyond it. And that the predominant of the 
companies in the business can't recoup their investment in less 
than 30.
    Mr. Prouty. And you can't get a competitive user rate at 
that as well at 10 years.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Thank you, Mr. Chairman. I do think that is a 
good idea to work with the Budget Committee on that, because it 
does save us a lot of money in the long run.
    In the President's fiscal year 2010 budget, there is $496 
million for repairs and alterations to Federal buildings. 
However, for the first time in recent memory, all of the full 
scope repairs request is for the White House: $121 million for 
the east wing, $30 million for the new Executive Office 
Building, $25 million for the old EOB.
    So I would like to know, Mr. Prouty, are there no other 
Federal buildings in the rest of the country, or in D.C., for 
that matter, that require repairs or alterations? And just to 
point out, last year's appropriations for the Eisenhower 
Building was supposed to be the last installment in its more 
than one half billion dollar renovation, but you all have asked 
for an extra $25 million in 2010. I just wondered why that was 
necessary as well. So both questions, please.
    Mr. Prouty. The first answer is there are certainly a lot 
of projects throughout the country. But as you look at the East 
Wing project and the New Executive Office Building project, 
those are projects that we think have a significant need. It is 
important that we do those projects. There are some issues 
within both of those structures that we think need to be 
addressed. So as you look----
    Mrs. Emerson. Is there degradation in the buildings?
    Mr. Prouty. In the east wing, it certainly involves 
electrical systems which we think absolutely has to be 
addressed. We have had some outages, in the east wing or the 
west wing. But, nonetheless, our people have serious concerns 
about those.
    The other two projects, the courtyard replacement is a--I 
have got to look at the project, but it is a newly identified 
requirement for Secret Service for modular structures. So it is 
a new identified need. And then the roof replacement on the 
Eisenhower building is the roof is just worn out. Some of that 
may have had to do with all the work that is being done, I am 
not really sure, but it has been a really long time since the 
roof was addressed and it needs to be addressed.
    So you are right. We were obviously concerned when we were 
putting this in, but these are projects that have to be 
addressed. And as we address all the many other projects on the 
$4.5 billion and $5.5 billion list, these are projects we need 
to do.
    Mrs. Emerson. Let me move to stimulus spending. And I am 
anxious to get the letter from you all answering the questions 
that I raised. I do have a few questions to ask today. I am 
concerned about the number of new buildings, and newly built 
buildings that are on the list for modernization. One of which 
is--well, let's see. Where is my list? But some--I know there 
are some buildings less than 5 years old that it sort of makes 
me a little wary of giving the agency so much money under the 
circumstances, because why would we have to repair a building 
that is only 5 years old or less than 5 years old?
    Mr. Prouty. You really don't have to repair a building. But 
as we are looking at green opportunities, these are 
opportunities that weren't there 5 years ago, in some cases 2 
or 3 years ago. There are systems, there is photovoltaics, 
there are all kinds of opportunities. And they all have 
payback. So you are right, we don't have to touch those 
buildings. There is nothing that is critical. But there is an 
opportunity to benefit the taxpayer and benefit the tenants of 
the buildings.
    Mrs. Emerson. Okay. There was also in the plan that you 
submitted to the committee $157 million was designated to cover 
escalation costs of buildings which have already received 
funding. And I guess my question is, can you equate the 
escalation costs to creating new jobs?
    Mr. Prouty. It is real work. There is no question that it 
will continue the construction on those jobs. So there is--
people will go to work because that funding is now in place. So 
if the project were not to get the funding and were to stop, it 
wouldn't be work. Whether it is new jobs, it is new work. One 
can certainly argue that we got there because of changes in the 
project or the market or the contract, but it is jobs, it is 
people working.
    Mrs. Emerson. What is adding to the escalation? What does 
add to the escalation costs? It certainly isn't the price of 
materials. They are less now than they were 2 years ago.
    Mr. Prouty. It could have been at the time. And when you 
look at these projects, they were projects that were ongoing. 
So it could have been materials.
    Mrs. Emerson. But just given the fact that we are losing 
lots of jobs because commodity prices are too low for aluminum 
and steel and things like that, I don't understand how 
materials could possibly be more expensive.
    Mr. Prouty. I assure you, I would rather be here next year 
than this year, because we are talking about what has gone on 
before, and next year we are going to start seeing the benefit 
of the market.
    Mrs. Emerson. We will keep our fingers crossed. Over the 
last 5 years, you all have requested over $600 million in 
reprogramming to cover cost overruns in capital projects. And I 
will admit to trying to help you get at least $2 million of 
that for the courthouse that we had in Cape Girardeau. But the 
thing that worries me is that history of perhaps 
underestimating project costs.
    Are you comfortable having GSA giving us an assurance that 
the estimated costs of projects in the stimulus bill or the 
recovery bill are correct? And, if so, perhaps you can tell us 
what kind of new systems or additional steps that you all have 
taken to ensure that these costs are accurate and we are not 
going to have to come back next year with escalation costs.
    Mr. Prouty. I think the better assurance is the market is 
probably going to take care of us. Whenever you estimate, you 
always have a chance that--you have a very strong chance they 
are not going to be right. We continue to refine our processes, 
our systems. We try to centralize some of that work to make 
sure we benefit nationally from what is going on. It is always 
a problem, especially in a dynamic market.
    The good news now is we are going to miss them, but we are 
going to miss them on the other side. So we are going to look 
really smart because we are going to save money. So when the 
markets were in flux and the steel costs were going up 10, 20, 
30 percent, we just couldn't keep up. But we always try to 
refine the system to make sure we get better estimates, make 
sure we deal with contractors who have maybe better insight 
into markets.
    Mrs. Emerson. We did a fairly substantial renovation to our 
house that came in exactly on budget, which with one exception 
because I did one change order, so it was one. But we were 
completely on budget and on time, which was shocking.
    Mr. Prouty. It is even a challenge in residential work. But 
we try to refine it.
    Mrs. Emerson. Okay. One more question then, if that is all 
right, for now. Are you all going to purchase ethanol vehicles 
with Recovery Act funds provided for the energy efficient motor 
vehicles? And, if so, what steps are you going to take to 
ensure that there are enough facilities at which you can buy E-
85?
    Mr. Prouty. First, the answer to the first question is 
``yes.'' The answer to the second one is we have discussed 
before, is we continue to try to make sure that we place them 
where there are enough providers of ethanol, and we will just 
continue to try.
    Mrs. Emerson. It is very frustrating, because even in my 
State of Missouri, I think we probably have 30--and agriculture 
is the predominant part of our economy. We have 30 or 40 
stations that have one pump, other than our MFA facilities, one 
pump if we are lucky, at break times, and a couple of other 
places. So that is the worrisome part. What percentage of the 
new fleet will be E-85? Do you know?
    Mr. Prouty. They are all hybrid so they are dual, ethanol 
or gas. As just mentioned, we are working with the ethanol 
group trying to get more stations. We share your frustration.
    Mrs. Emerson. Okay. I do appreciate that, because that has 
continued to be, not only for your purposes but for all 
Americans who want to have a hybrid vehicle and particularly 
using biofuel, actually having the capability of filling it up. 
I mean, a lot of times I will rent at home a flex fuel vehicle, 
but sometimes I put gas in it and sometimes I put E-85. It just 
really depends.
    Now, have your cost considerations taken into account the 
fact that while the E-85 vehicles may produce less greenhouse 
gases, you still lose 20 percent? In other words, they are not 
as efficient on usage of that fuel? So does that balance out?
    Mr. Prouty. Yes.
    Mrs. Emerson. They do?
    Mr. Prouty. Yes.
    Mrs. Emerson. Thanks.
    Mr. Prouty. Thank you.
    Mr. Serrano. Let me just pick up on that issue. When you 
are ready to replace a car, a vehicle, do you take into 
consideration the polluting issues and so on? I mean, is there 
a plan to say, as cars are being replaced, that they should be 
replaced by fuel efficient?
    Mr. Prouty. Yes, there is. It is based on their age and 
their efficiency, and all have to be at least 10 percent more 
efficient than the one that they are replacing.
    Mr. Serrano. So in addition to whatever the stimulus bill 
provides, there is an ongoing behavioral policy by GSA to 
accomplish this?
    Mr. Prouty. Right.
    Mr. Serrano. Does the stimulus make this more of a 
priority, or would you say even if there was not stimulus money 
we would still be looking at it with the same fervor that we 
would be during this period? What is happening now is because 
dollars were allocated to you for this purpose, folks who feel 
that this is an important issue will be paying a lot of 
attention to it. But if this money was not in the pot, would 
they be satisfied that you are moving in that direction or have 
been moving in that direction recently?
    Mr. Prouty. They would be.
    Mr. Serrano. Now, one of the issues that my office has been 
working on is the whole issue of trying to help the postal 
service--as you know, they are in a lot of trouble--to move to 
more efficient vehicles and their whole fleet. Has GSA been 
doing any work with that at all? Have they been asked to?
    Mr. Prouty. I don't believe we have, but let me ask.
    They generally buy their own. We are available to work with 
them. It is just not something that has happened.
    Mr. Serrano. Thank you. As you may know, I pay a lot of 
attention to what happens in our territories. In general, 
traditionally the territories have been in many cases an 
afterthought when it comes to any kind of funding, any work we 
do in any Appropriations Committee. So with respect to the 
Recovery Act construction funding, are any of those funds being 
used in the territories?
    Mr. Prouty. Yes.
    Mr. Serrano. And what projects can you speak about?
    Mr. Prouty. There are four projects totaling $144 million: 
One for the FBI in San Juan, $43 million; one is in Hato Rey, 
$99 million for green building modernization; one in San Juan 
also for green building modernization; and one in the Virgin 
Islands that is also a green building modernization. $1.7 
million on that project. And--anyway, the total is $144 
million.
    Mr. Serrano. Is this based on an existing list of 
priorities? I mean, I am sure there are more projects that 
could be funded in the territories. But these are the ones that 
you feel you could do at this point?
    Mr. Prouty. Right. They all met criteria based on our 
ability to spend the money quickly, the need of the facility, 
the opportunity that it provided.
    Mr. Serrano. Related to the environmental issue, the 
largest part of GSA's Recovery Act funding is for modernization 
and renovation to convert Federal facilities to high 
performance green buildings. Could you give us some examples of 
the kind of energy savings and environmentally friendly 
measures that are going to be used in this effort? Do you have 
a target or an estimate for the resulting energy savings?
    Mr. Prouty. I will answer the last first.
    It depends on the facility, the magnitude of the 
renovation. We are hopeful of getting at least a 20 to 30 
percent return. So in each of them, each project could have a 
different need. Some of them could have photovoltaics, some of 
them could have new windows. So many have new systems balancing 
the systems. So there is a whole array of projects that are in 
the green building category.
    Mr. Serrano. How many buildings do you operate, do you run, 
service, take care of?
    Mr. Prouty. 8,000 total; 1,300 owned.
    Mr. Serrano. About 8,000 total, 1,300 owned. If you had to 
give us an estimate of how many of those facilities are already 
green, if you will, or do we have any information on that?
    Mr. Prouty. This is one of the great estimates of all time. 
55 or 60. I mean, as far as we just have not spent a lot of 
time. There is some that we have on green buildings. It is a 
very low number. Don't hold us to that, though.
    Mr. Serrano. I understand. Some would say 55 is a good 
number. GSA is requesting $33 million for electronic government 
fund, an account which just received $3 million two years ago 
and nothing at all last year. Could you please explain what 
sort of initiatives this $33 million is intended to finance and 
what benefit it will provide?
    Mr. Prouty. What we are seeing through the administration 
is that there is a desire to find different opportunities to 
more effectively provide the IT needs of the government. So 
there is some opportunities to change the platform, to talk 
about cloud computing. I can give you a little bit, but not a 
lot, because I am certainly not an expert. But there is a way 
to leverage that. And so we are working with the administration 
to see what those opportunities are to cause government to have 
a consistent platform and technology which may lead to 
consistency in web pages, blogs, what have you. So we are 
looking for any opportunity to benefit from what is going on in 
the private sector to better provide the IT needs of 
government.
    Mr. Serrano. And these things you do on your own? Or you 
bring in folks from the private sector to advise you?
    Mr. Prouty. Always the private sector. We have a lot of 
experts, but we are trying to make sure we have cutting-edge 
stuff.
    Mr. Serrano. Again, if you were to brag or moan about how 
far you have gone here, what condition are you in?
    Mr. Prouty. I think there are lots of challenges. I think 
the government has done extraordinarily well, but times change 
so quickly. If you look at all the data centers that we are 
creating, there may be a much better opportunity to provide 
that service to better leverage the government.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Last month as we were falling further into 
debt, the President requested a $100 million cut from each of 
his cabinet officials. I know that the Department of Homeland 
Security--and I don't know why I keep beating up on them, I 
don't mean to, but needless to say they just come to mind. The 
Homeland Security responded by identifying $100 million a year 
in spending on office supplies as a savings opportunity. And 
specifically, they proposed $52 million in savings over the 
next 5 years by improving the process of purchasing office 
supplies, and $10 million in savings related to office 
equipment.
    Now, you all do a great job in a lot of areas. I know that 
you, as the Federal Government's procurement expert, have a 
relationship with the Department of Homeland Security, and they 
are your client. And I think even back in 2006 you signed a 
memo of understanding with them for certain services, including 
purchase of office supplies. So I have three questions.
    One, what role and responsibility do you all at GSA have 
for overseeing the $100 million in Homeland spending for office 
supplies?
    The second question is, for how many other agencies do you 
oversee procurement?
    And the last, I wondered if the administration had asked 
you all at GSA to identify savings opportunities. And, if so, I 
would be grateful if you could supply our committee with other 
opportunities of areas you manage where there may be potential 
savings comparable to that which we are going to get from 
Homeland Security.
    Mr. Prouty. My understanding about Homeland Security is 
that they envision they can do that on their own. We are 
confident that we are a better source for that. We continue to 
get the best price, and we think the more we leverage 
government, the better our opportunities to save. So we are 
only able to provide the benefits for those who use our 
services on our schedules.
    Mrs. Emerson. So they are going to be working through 
themselves and not you all?
    Mr. Prouty. Right.
    Mrs. Emerson. And they think they can get all of the things 
which they normally get from you all cheaper?
    Mr. Prouty. From what I have read, that is what I believe 
they are saying.
    Mrs. Emerson. Do you know what it is that they--do you have 
a list of those things that they think they can get for less 
than you all can get it for?
    Mr. Prouty. We don't.
    Mrs. Emerson. So what other agencies do you all work with 
as far as procurement services acquisition?
    Mr. Prouty. Those that use our schedules. Is that the 
question?
    Mrs. Emerson. Yes.
    Mr. Prouty. It is an immense list. We can provide it. It is 
over a hundred agencies.
    Mrs. Emerson. I mean, how often do you renegotiate the 
contracts, perhaps, or the agreements that you have with 
different entities? Let's just say hypothetically it would be 
Staples or other office supply companies. I mean, how often do 
those get renegotiated?
    Mr. Prouty. We always get a good commercial price. Jim just 
mentioned that our schedules are designed in such a way that 
they react to the market, so we always get a good price.
    Mrs. Emerson. So supposing if, in fact, Homeland Security 
thinks they can get things for less, then where would they be 
going out and purchasing them?
    Mr. Prouty. I don't know. What I can offer is that we can 
certainly talk to them.
    Mrs. Emerson. It would be helpful to get some information 
on that.
    [Clerk's note.--Later corrected to ``GSA has not been asked 
by the Administration to identify $100 million in savings 
opportunities. With that said, GSA does not intend on providing 
a list.'']
    Mr. Prouty. The last part of the question was we, like 
every agency, have been asked to see where we can cut. That 
list has not been fully prepared, but we are certainly happy to 
share with you whatever we come up with.
    Mrs. Emerson. That would be helpful. It occurs to me, when 
I worked in the Executive Branch many, many, many, many, many 
years ago.
    Mr. Serrano. Not that many.
    Mrs. Emerson. Oh, no. It was many, many. I was just a mere 
college grad at the time. So that--and I am older than you. 
Maybe not. We are about the same age. So, anyhow, it was a 
while ago.
    Mr. Serrano. I am glad we are having this conversation.
    Mrs. Emerson. But I remember, several of the things that my 
agency bought or got from GSA, because we must have had a 
contract with you all, some were more expensive than if I had 
just gone to buy them at Staples myself. And sometimes, I don't 
understand, maybe things have to do with service agreements or 
something. But are there extra costs built in sometimes? If you 
compare apples to apples, it is more expensive sometimes from 
you all.
    Mr. Prouty. Jim says there are times when they could have 
been more. Aggregate demand can always be less. So the more 
buying power we have, the better our buying ability, the better 
to negotiate the deal.
    Mrs. Emerson. I will look forward to getting this list from 
you.
    Mr. Serrano. I have no further questions. We have exhausted 
all our questions. That is called a grilling. But we thank you 
for your testimony. I know that my colleague joins me. I want 
to thank you for your continued service. 38 years is a long 
time. I know, because I have been doing this 35 years, and it 
is a long time. And it is people like you who don't get the 
publicity on the 6:00 news that they deserve, and on behalf of 
this Congress we thank you. And I know you will be going back 
to the rocky region?
    Mr. Prouty. Rocky Mountain region.
    Mr. Serrano. That sounds good just by the way you say it. I 
know you will be happy. On behalf of the Agency and we thank 
you for your service, past and present.
    Mr. Prouty. A most gracious thank you.
    Mr. Serrano. And this hearing is adjourned.

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                             Tuesday, May 19, 2009.

              NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                               WITNESSES

ADRIENNE C. THOMAS, ACTING ARCHIVIST OF THE UNITED STATES
MARTHA MORPHY, CHIEF INFORMATION OFFICER
    Mr. Serrano. The subcommittee will come to order. We 
welcome everyone to this very cozy rent-controlled room. The 
whole building is rent control, right?
    Today we will hear from the National Archives and Records 
Administration on its budget request for fiscal year 2010. 
Overall, NARA is requesting $454 million, an increase of $6.6 
million or 1.5 percent above fiscal year 2009. We welcome the 
Acting Archivist of the United States, Adrienne Thomas, back to 
the subcommittee.
    In so many ways, NARA serves a vitally important role in 
our country. It helps preserve and provide access to a vast 
array of important records. These records help to tell the 
stories of individuals, institutions, and the country as a 
whole. NARA holds the records of all three branches of the 
Federal Government and operates 12, soon to be 13, Presidential 
libraries.
    Whether helping to keep government open and accountable, 
assisting individuals with research, or assisting historians, 
the information made available by the National Archives has 
provided valuable assistance to a great many people for 
decades. Furthermore, every Federal working day, NARA publishes 
the Federal Register to help inform Americans about government 
regulations and opportunities to submit comments on proposed 
government rules.
    Most recently NARA's new Office of Government Information 
Services is intended to strengthen the Freedom of Information 
Act and to ensure that government remains open and accessible 
to the public. NARA has recently acquired the White House 
records of the Bush administration and is working to reduce the 
backlog of Freedom of Information Act requests for records of 
previous Presidents.
    In addition, NARA is working on the multi-year electronic 
records archive record to allow electronic records to be 
preserved and retrieved far into the future regardless of 
future changes in technology. However, like other government 
information-technology projects, this has had difficulties, and 
I look forward to discussing this subject further today.
    Adrienne Thomas has served as Acting Archivist of the 
United States since December. She has been with the National 
Archives for more than 38 years, most recently serving as 
deputy archivist and as an assistant for administration and 
chief financial officer.
    Ms. Thomas, thank you for your service, and we mean that 
sincerely. When I said 38, the ranking member went wild.
    Right?
    Mrs. Emerson. I did, right.
    Mr. Serrano. That is a long time.
    Mrs. Emerson. You don't look old enough.
    Mr. Serrano. We want to check out that pension. No.
    Ms. Thomas. I started right out of graduate school.
    Mr. Serrano. We are glad you did, and we are really honored 
by your service.
    We also welcome back Martha Morphy, the chief information 
officer of NARA.
    Thank you as well for joining us.
    This is what, your 30th, your 29th, your 15th.
    Ms. Morphy. Actually, my 30th year, not all at NARA but for 
the Federal Government.
    Mr. Serrano. Wow.
    Let me just, before I turn to Mrs. Emerson, say that, as I 
drive down the avenue, and I have said this before, there 
always seems to be a line waiting to get into the Archives. And 
I mean, there are lines everywhere in Washington, nothing like 
this one. And I am also glad to see that most of the folks I 
see there, or a large number, are young people.
    Ms. Thomas. Kids, yes. School kids.
    Mr. Serrano. I have commented to my staff on that at last 
year's hearing, I think. But we always see so many people 
outside. That tells you how the public feels about what is kept 
there, and that is why we have to be supportive, as supportive 
as our ranking member, Jo Ann Emerson.
    Mrs. Emerson. It is my turn now? Thank you, Chairman.
    Mr. Serrano. Did you think that introduction was being 
wasted?
    She is a big St. Louis Cardinal fan.
    They keep a big baseball card collection.
    Mrs. Emerson. Do you really? I did not know that. I will 
have to come down and----
    Ms. Thomas. Not at St. Louis, but----
    Mrs. Emerson. No, but I will still have to come----
    Mr. Serrano. My understanding is it was involved in a 
lawsuit, and then it became Federal property.
    Ms. Thomas. Evidence.
    Mr. Serrano. So you have it.
    Mrs. Emerson. I love it. Wow.
    Well, I can tell you that the Cardinals haven't been doing 
well lately, so I am mad at them.
    Mr. Serrano. Well, we have got our baseball----
    Mrs. Emerson. That is true.
    Thank you very much for being here, and we welcome you and 
are grateful that you are appearing before our subcommittee.
    It is amazing to me how valuable and how precious it is, 
the historical documents that you all are charged with. And it 
is a great window to our government and our society, and it is 
so important to allow the public to see these documents, and I 
have always had great admiration for the work that you all do. 
It is wonderful to be the protector of documents. It is.
    I note, as the chairman said, there are a number of 
endeavors that you all have this year, whether it is sorting 
through the Bush era documents; whether it is continuing the 
next phase of electronic records, which must be monumental, I 
have to believe; renovating libraries; expanding the public's 
knowledge of historical documents; and building and maintaining 
the archival expertise at your agency. And it is a full budget 
request, and I am hopeful that we can meet your greatest needs.
    I want to say one thing as a matter of personal privilege. 
I was recently at the 60th anniversary of NATO in Strasbourg, 
and it was so wonderful to see the Washington Treaty, and I 
actually have great pictures of it. I probably could find it in 
my BlackBerry while we are listening to Ms. Thomas, but I 
really have to admire the way that it was not only displayed; 
it was really very interesting because the person who was 
charged with it, the security didn't want to, they just wanted 
us to be able to bring the treaty in and just sit it there and 
not have anyone baby-sit it, which of course you could not 
possibly do. But it all worked out and it was so special to see 
it there. And I think all the foreign leaders and all the 
parliamentarians who were in that room, everybody ran up to get 
their picture made with it.
    Ms. Thomas. I heard that it went over very well.
    Mrs. Emerson. It was a huge, huge success. But I wanted to 
mention that. I am going to find that picture now.
    But thank you so much, and I do look forward to your 
testimony.
    Mr. Serrano. Thank you.
    If you could keep your testimony down to 5 minutes, we will 
submit the full statement for the record, and that will give us 
an opportunity to grill you.
    Ms. Thomas. That is why I brought Martha with me to help.
    Mr. Serrano. We may have votes coming up soon.
    Mr. Edwards. As the chairman speaks.
    Mr. Serrano. As I speak.
    Please proceed.
    Ms. Thomas. Chairman Serrano and Ranking Member Emerson and 
members of the subcommittee, I am really pleased to be here 
with this opportunity to testify before you today on the fiscal 
year 2010 budget request for the National Archives and Records 
Administration.
    As you know, I brought Martha along to talk about the ERA. 
She is in charge as the CIO for the agency of that major 
endeavor for the agency.
    I want to thank you all for supporting the National 
Archives for the current fiscal year. The steady support that 
this subcommittee has provided to our agency has been critical 
to our efforts to address the many challenges of our role as 
the Nation's record keeper.
    For 2010, the National Archives' budget request is $466.9 
million, an increase of $7.6 million over the current fiscal 
year. The request encompasses four broad categories: the 
operating expenses for the agency; the electronic records 
archive account; the repairs and restoration account; and the 
National Historical Publications and Records Commission grants 
program. It also establishes the Office of the Inspector 
General in a separate appropriation under the National Archives 
in line with the requirements of the Inspector General Reform 
Act of 2008.
    The President's request for the National Archives' 
operating expenses is $339.8 million, an increase of $12.5 
million over 2009. The operating expenses appropriation 
provides for the costs of the general operation of the agency, 
including building operations, rent, staff salaries, and 
technology costs necessary to carry out NARA's mission.
    This budget request also provides $1 million to hire 12 
entry-level archivists who will join entry-level archivists 
hired into our Archival Development Program with funding 
provided to NARA by this committee in fiscal years 2008 and 
2009. This will help us keep pace with the increasing number of 
archival records by building a workforce capable of handling 
21st century records challenges and to develop an experienced 
staff that can replace those current members of our staff as 
they retire, since, you know, that Martha has been there 30 
years, and I have been there 38. And there are others like us. 
So we will be leaving at some point, and we will need people to 
replace us.
    The operating expenses budget request also includes an 
increase of $600,000 to store nearly a quarter of a million 
cubic feet of newly accessioned Federal civilian official 
personnel files dating from the late 1880s until about 1952, 
which are located in St. Louis.
    Also included is a request for funding the Controlled 
Unclassified Information Office. In 2008, the National Archives 
was designated as the executive agent for the implementation of 
the framework for the Controlled Unclassified Information, or 
CUI, throughout Federal agencies, and the fiscal year 2010 
budget request of $1.9 million would allow us to develop and 
implement changes necessary to transform the present CUI 
practices into a standardized CUI framework.
    Additionally, we are seeking funding to support the 
creation of the Office of Government Information Services, 
which was authorized by the Open Government Act of 2007, to 
promote accessibility, accountability, and openness in 
government by strengthening the operation of the Freedom of 
Information Act. The administration requests $1.4 million to 
support this program.
    To support the Office of the Inspector General, the 
administration requests funding of $4.1 million and to set it 
up as a separate appropriation, as I mentioned.
    To support NARA's most important records initiative, the 
Electronic Records Archives, or ERA, we are requesting $85.5 
million, an increase of $18.5 million over fiscal year 2009. 
ERA is critical to NARA's effort to preserve and make 
accessible the electronic records of the Federal Government. 
This budget will enable us to deploy the public access and 
initial preservation capabilities of ERA, which we are 
beginning to develop this year. It will also allow us to 
establish robust online backup and restoration capabilities so 
that ERA can provide effective service without interruption and 
ensure that adequate capabilities are in place for managing 
restricted records.
    NARA owns and operates 16 archival facilities, and to keep 
these facilities maintained properly, the Congress created the 
repair and restoration appropriation. This year's request for 
repair and restoration is $27.5 million, a decrease of $23.2 
million in one-time projects from fiscal year 2009. Included in 
the repairs and restoration request is $17.5 million to 
complete the renovation of the Franklin D. Roosevelt Library in 
Hyde Park, New York. The first half of the funding for this 
much-needed project for this 68-year-old building was included 
in the fiscal year 2009 appropriation.
    We are also pleased, very pleased, that the fiscal year 
2010 budget includes $10 million for the National Historical 
Publications and Records Commission, the only grant-making 
entity in the government that exclusively promotes the 
preservation and use of the country's archives and the 
compilation of the publication of historical records of 
significant figures and movements in American history. In this 
75th anniversary of the National Archives, it is only fitting 
that an institution dedicated to preserving the history of our 
government look back with pride at its history of 
accomplishments.
    However, the work we do every day with your support is as 
much about the future as about the past. I am proud to say that 
at the National Archives, we never lose sight of the fact that 
protecting and preserving the American record is in service of 
future generations. I believe that the President's fiscal year 
2010 budget request allows us to stay true to that mission.
    That concludes my testimony, and I will be happy to try any 
of those hardball questions you are going to throw at me.
    [The information follows:]

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Serrano. Thank you so much, and we thank you for your 
testimony.
    The first thing that immediately comes to mind which we 
dealt with in the past is the whole issue of evening and 
weekend hours. Does the current budget request allow for the 
continuation and even expansion of weekend and evening hours? 
And if you recall, in past hearings, this was a big issue with 
all the members of the committee.
    Ms. Thomas. Yes, it was. We went through a period of time 
where we did reduce the Saturday hours and the evening hours in 
order to meet the resources that we had to expend on all of our 
programs, but we have restored those hours. We have actually 
come up with I think a pattern of when we are open that 
actually suits our researchers better than what we had before.
    We went through a period, when we were reestablishing those 
hours a few years ago, that we went out, and we met with the 
researchers, and we got input, and they said we prefer these 
hours, these nights, whatever, so we were able to adjust what 
we had been doing to something that was better accepted by the 
researchers. So, as far as I know, most of the researchers have 
not complained. They are very happy with what we have got now, 
their access to the records.
    Mr. Serrano. That is good because, as I said, that was an 
issue that the committee members were really interested in in 
the past.
    Ms. Thomas. That is true.
    Mr. Serrano. Let me ask you about the Electronic Records 
Archives project. Because of both an unexpected project delay 
and the pressing requirement to receive the electronic 
Presidential records of the Bush administration, NARA decided 
to develop a separate, parallel system for receiving these 
records in order to be prepared to make them available to a new 
administration, Congress, and the courts; yet it is my 
understanding that only 3 percent of the electronic records of 
the Bush Executive Office of the President have been ingested 
into this system, even though NARA has spent more than $40 
million thus far to develop the system.
    NARA has been using backup systems to respond to requests 
for these records, and these backup systems cost less than 
$600,000 to put into service. When will the EOP system have the 
capability to search all Bush electronic records that were 
transferred to NARA, and how much do you think will be the 
cost?
    Ms. Morphy. The system, the actual ERA system, was prepared 
to take in all of the Bush records in December of 2008. So we 
were prepared from a technical point of view to ingest the 
records into the system.
    However, while we had a good relationship in working with 
the White House to get the records into ERA, the White House 
preferred us not to take the records until January 20th, and 
the actual physical copying of the records and moving them to 
our site at Rocket Center took longer than January 20th. We had 
to be prepared on January 20th to have the records available; 
therefore, we set up the contingency systems. We now have all 
of the records at Rocket Center and are ingesting them, and by 
the end of October, all of the records will be in ERA and will 
be searchable.
    Mr. Serrano. Well, when you initially certified the initial 
operating capability in December, did NARA take into 
consideration the ability of the system to take in all this 
information at that time?
    Ms. Morphy. Yes. We knew that it would take a few months, 
and that is why we did have the contingency plan in place. The 
contingency plan is actually running the old systems as they 
were given to us by the White House. That is not sustainable. 
That will only work for a short period of time. What ERA will 
do that those contingency systems don't do is that we will be 
able to preserve the records over time and ensure that they are 
accessible over time. We could not sustain the systems as they 
are today. We would have to buy new hardware and software and 
so forth, and ERA is really the solution to long-term search-
and-access capability for those records.
    Mr. Serrano. Mrs. Emerson.
    Mrs. Emerson. The Federal Register is just one of the many 
documents the Archives catalogues and maintains, and the 
Archives Web site compares the Federal Register to a daily 
newspaper of the Federal Government published every day by the 
National Archives, and it is responsible for informing the 
public about regulations, notices, executive orders, 
proclamations, other documents.
    We in the Congress and especially in this committee look to 
the Register to see how an agency is actually moving forward 
with its work. However, some agencies are beginning to complain 
about the cost of publishing. For example, the Elections 
Assistance Commission had to publish every State's election 
plan, a cost that ran into the millions of dollars. Can you 
tell me, how do you all arrive at the cost to charge an agency 
for publication of a rule or notice?
    Ms. Thomas. Well, as it turns out, we don't make the 
charges. The Federal Register puts together the content with 
the agencies of what goes into the Federal Register or the Code 
of Federal Regulations or whatever, but in this case, the 
publisher is the Government Printing Office, and they produce 
and set the page charges for everything that appears in the 
Federal Register.
    I know that GPO runs a revolving fund. They are supposed to 
cover all their costs. I don't know everything that goes into 
making up the page charge, but that basically is a GPO issue. 
And I am happy to say it is.
    Mrs. Emerson. Interesting enough, because some agencies 
have actually gotten creative in working around the cost of 
Federal Register publishing. There is a notice here from HUD 
dated April 16, 2009, regarding a Notice of Funding 
Availability, or NOFA, for the fiscal year 2009 discretionary 
program dollars. To make a long story short, you would think 
that HUD would have a long notice. However, it is really quite 
short because instead of publishing the entire NOFA, HUD simply 
refers the reader to their Web site. So, apparently, the fiscal 
year 2008 omnibus had a provision, section 233, which allows 
HUD to make NOFAs available on the HUD Web site, www.HUD.gov, 
or on other appropriate government Web sites. You are nodding, 
so you were aware of that.
    Ms. Thomas. Yes, I am aware of that. And I know that the 
other Web site where most of these kinds of notices appear are 
at grants.gov, where people go to find out what grants are 
available and get the application.
    Mrs. Emerson. So how does Archives then get a copy of the 
official document if it is not in the Federal Register? And how 
will we be able to historically refer to, like, a fiscal year 
2009 notice if, say, in 2012, we want to check on the NOFA, but 
we have got HUD's Web site, and I bet you anything it is not 
going to be there at that time?
    Ms. Thomas. You are probably absolutely right.
    Mrs. Emerson. So how do you get that information?
    Ms. Thomas. Well, all of the records that are created in an 
agency have to be covered by a records schedule which says this 
series of records is permanently valuable; this series of 
records is disposable after a certain period of time. They do 
that for all of the records that are created in the agency, 
including, I am sure, these notices. That schedule comes to the 
National Archives, to our records management staff. Sometimes 
it comes--well, no, most times, I would say, that our records 
management staff has been working with their records staff to 
create this schedule, so that when it comes, it is not a 
surprise.
    The Archivist has to sign off on the schedule. They can't 
destroy anything. They can't assume anything is permanently 
valuable until the schedule has been approved by our staff, and 
as Acting Archivist, I sign the schedule. So the series of 
records that you are talking about, since it is, I would equate 
it to something like a contract file where you have got a 
notice; you have got people coming in with proposals for grant 
money; and then the award of a grant money to those agencies, 
to those recipients, that that is likely to wind up being a 
permanent file within that agency's record schedule.
    Mrs. Emerson. I see.
    Ms. Thomas. So it doesn't have to appear in the Federal 
Register to make sure it is permanent.
    Mrs. Emerson. Interesting. I have one last kind of screwy 
question, but as you are preparing to finish up the renovation 
for the Franklin Roosevelt Library, who actually, do you 
contract for this renovation through General Services 
Administration?
    Ms. Thomas. No, we don't, not for the buildings that we own 
and operate.
    We have standing contracts with two architectural firms, 
and we have standing contracts with two construction management 
firms, and then we wind up going out for the company that will 
actually do the construction. But then we use our standing 
contracts to do the design and to do the oversight of the 
construction when we get to that point.
    Mrs. Emerson. So you actually have a proven manager or a 
manager within the agency----
    Ms. Thomas. I actually have engineers and architects who 
work for me who work on those kinds of projects.
    Mrs. Emerson. All right. Thank you very much.
    Mr. Serrano. I think we need to go vote.
    [Recess.]
    Mr. Serrano. We will resume, and I apologize for that. This 
whole thing called democracy, voting.
    Ms. Thomas. Yes, we are for that.
    Mr. Serrano. You have sent the committee an expenditure 
plan for the fiscal year 2009. At the same time, it is my 
understanding that with regard to significant portions of these 
funds, NARA is still negotiating with the contractor as to the 
specific functions that will be developed with the funds. When 
will NARA and the contractor determine the specific functions 
to be delivered this year, and how does NARA determine the 
requirements for each phase of ERA development? How are those 
requirements enforced, and what roles does the contractor have 
in setting or revising the requirements?
    Ms. Morphy. The government is establishing the requirements 
for ERA. For fiscal year 2009----
    Mr. Serrano. Government wide?
    Ms. Morphy. The National Archives is working with the 
contractor Lockheed Martin. But we are establishing the 
requirements. For fiscal year 2009, with the money that we 
received, we are focusing on developing public access and a 
preservation framework for ERA.
    Basically what the negotiations are about is the specifics 
of what will be covered for the first phase of public access 
and for the first phase of preservation. We should complete 
negotiations by mid June, and we will give an update to 
Congress related to the costs and the specifics of what will be 
built.
    Mr. Serrano. And you are currently in negotiations with the 
contractor?
    Ms. Morphy. Correct.
    Mr. Serrano. Let me skip a second here and ask you a 
question that I always like to ask folks. If you, and maybe you 
covered it in your testimony, but if you came to us and said 
the most pressing need we have at NARA is the following, dot 
dot dot, what would be the most pressing need that you have?
    Ms. Thomas. Well, I think it has to be ERA, because if we 
don't develop the ERA system to preserve the electronic records 
that are being created by the agencies, then we have got this 
gap in history that you can't recover from.
    We have a lot of needs in the Archives, but processing 
paper records, we need staff to do that. We need staff to deal 
with FOIA requests at the libraries and so forth. But if that 
doesn't get done, nothing is going to disappear. It will be 
delayed, but it won't disappear.
    But electronic records and with the amount of electronic 
records that are now being created in the Federal agencies, I 
mean just the example between, for example, for the White House 
records of the Bush administration we took in 100 terabytes of 
information. The Clinton administration, 2 terabytes. So the 
explosion of electronic records is just tremendous, and it is 
going on, not just in the White House but in all the Federal 
agencies. So ERA has to be our most critical system 
development, our most critical need.
    Mr. Serrano. How do you store, I mean this is something 
when you say you took in so much, is it stored in computers? I 
mean, I don't think we have ever heard of, have you ever heard 
of terabytes before?
    Mrs. Emerson. No. I just asked if----
    Mr. Serrano. Is that related to tera as in terra cotta or 
tierra like earth?
    Ms. Morphy. If you think about what--probably a good 
comparison is between the Clinton records and the Bush records. 
When Adrienne talked about 2 terabytes, that was all of the 
Clinton e-mail and anything else that was electronic. And back 
in the Clinton era, the index to the photographs was 
electronic, but the photographs themselves and the negatives 
were in filing cabinets.
    When we took in the Bush records, the index and all the 
photographs are digital, so it is just an enormous amount of 
data.
    And when you mentioned only 3 percent of the records today 
are in ERA, that is still more than we got for the whole 
Clinton administration. So the growth has just been 
exponential.
    Mr. Serrano. So all the photographs are also digital now?
    Ms. Morphy. Yes. And those are, actually we are moving 
those into ERA as we speak.
    Mr. Serrano. Now, one would argue right off the bat that as 
we get into every other new administration, I mean, we have a 
President who, as you know, made an issue and rightfully so of 
keeping his BlackBerry, which indicates that they understand 
the use of technology, but do we know for sure that there will 
be more naturally grown information to keep in this 
administration or did 9/11 create an amount of information and 
records?
    Ms. Morphy. It was not related just to 9/11. It is the 
administration records that we received that would come 
normally from the President.
    Mr. Serrano. This is the normal stuff. This is not anything 
that we may not see in a hundred years more.
    Ms. Thomas. Well, if you think about your own personal 
life, you might have had a film camera at one time, but I bet 
you have got a digital camera or two or three or whatever 
around the house. You have got a laptop. You have probably got 
a BlackBerry or something similar.
    Mr. Serrano. I have two. Now that you mention it, I do have 
a digital in my back pocket.
    Ms. Thomas. There you go. So we are expecting that probably 
the comparison between what the Obama administration produces 
will be something like Bush to Clinton, that leap will probably 
be Bush to Obama, another huge leap in electronic data that is 
produced.
    Mrs. Emerson. What comes after terabyte?
    Ms. Thomas. Is there one?
    Ms. Morphy. Yes, there is. But I am not sure what it is. 
Petabyte. Thank you, audience.
    Mr. Serrano. Peta?
    Ms. Morphy. P-e-t-a.
    Mr. Serrano. Isn't that a group?
    Ms. Thomas. PETA.
    Mr. Serrano. PETA.
    This is not one of my prepared questions, but I am 
wondering, what can the public expect in a few years once these 
things get into place? What would a visit to the Archives be 
like in terms of the information that will be available and the 
way that it will be available to the public?
    Ms. Morphy. What we are hoping is, since many of our 
records are in paper and that will not go away, what our plan 
is, is that when someone comes to the National Archives Web 
site, the first screen that they will see is, are you doing 
online research, or are you interested in paper records? 
Because one of the problems today is that if you go to our Web 
site, you get confused, my personal experience, very quickly 
because there are some electronic records on our Web site, and 
there are a lot of descriptions about our records, but it is 
hard for a user to see the whole archives.
    So our plan would be, as a user goes to the Web site, they 
would be directed to get an understanding of what is available 
online, and if it is not available online, where that box or 
that specific record is located. And as the number of 
electronic records grow, our hope is that we can put more and 
more online.
    Mr. Serrano. Okay. I personally took about a thousand 
photographs of my parents, and I scanned them, and they are on 
flash drives and drives everywhere. Is it that simple-that 
complicated, or do these documents require something else? 
Because what we seem to hear every year is that there is a 
backlog, so one of the questions would be, okay, how are you 
using your staff? What more do you need to get rid of the 
backlog? But the backlog, from what I hear, may not just be 
paper to electronics; it also may be just electronic records 
also that haven't been processed fully yet.
    Ms. Thomas. Well, with electronic records, I think the 
electronic records that we have accessioned into the National 
Archives, which we have been doing for the past 20 years, have 
been processed. The problem is that there is a pent-up demand 
in the Federal agencies to send us a huge and greatly growing 
quantity of records, and that is why ERA--electronic records--
and that is why ERA is so important to the agency. We do also 
have something like 2 billion pages of paper records that there 
is a backlog; about 60 percent of that has been fully described 
and available through ARC, our Archival Research Catalogue.
    Mr. Serrano. When you say there is a backlog, a backlog in 
getting them online?
    Ms. Thomas. Backlog in getting them described.
    Mr. Serrano. Okay.
    Ms. Thomas. Of the 2 billion pages of paper records, there 
is only ever going to be a small percentage of those that will 
ever be digitized and available online. The cost is just out of 
sight. And we have developed several partnerships with 
companies that are scanning and putting online some of the 
records that are of most interest. Right now, it is primarily 
for genealogists.
    So, I mean, we are working on all sorts of ways to leverage 
interest in our records from the outside to get them scanned, 
but it is still always going to be a small percentage. We are 
always going to be dealing with paper records.
    Ms. Morphy. I just wanted to add that, when you start, when 
you digitize paper records, you still have the problem of a 
human being having to take pieces of information and getting 
those into a database or somewhere else so that you can search 
against them. With electronic records, it is very easy to use 
search engines like Google, but when you are starting with 
paper records or even digitized records that started out as 
paper, even though they are digital, they are not searchable. 
You still need to create data about those records so that a 
user or a customer to NARA can understand what we have.
    Mr. Serrano. Now, for the record, you obviously get all the 
Federal papers, but you also get papers from States, right? You 
don't?
    Ms. Thomas. No, we don't.
    Mr. Serrano. So who gets it from the State legislatures?
    Ms. Thomas. It would go to the State archives.
    Mr. Serrano. But I thought that we had been speaking to 
someone--all right. My bad, as they say, but I thought that you 
guys kept some local records that may come to you.
    Ms. Thomas. No. The closest we come to that is that we did 
take--we do have some of the District of Columbia records 
simply because it is kind of a quasi, not a state----
    Mr. Serrano. This committee knows this well.
    Ms. Thomas. I am sure you do.
    Mr. Serrano. Yes.
    Mrs. Emerson. I need for you to describe what this ERA is 
going to look like. So, in essence, this is a system that will 
interpret and store records and then allow, obviously a, 
Google-type search engine; correct?
    Ms. Morphy. Correct.
    Mrs. Emerson. Are you trying to do this all at the same 
time? Would it make more sense to focus on one area and then 
create the search engine afterwards or is that----
    Ms. Morphy. We actually have been doing it in increments, 
and what we are doing this year is to really focus on a search 
engine that will work for the public, you know, for any user 
for the records that we already have in the archives.
    Mrs. Emerson. For those that exist now, but do you think 
that search engine will work once you have the masses?
    Ms. Morphy. Yes, we hope that it does. What we are trying 
to do is, we are trying to look very practically at the problem 
and to focus in on those formats that most Federal agencies are 
using. We can't solve all the problems related to formats 
because there are so many different problems. So we are trying 
to focus on preservation strategies for the formats that are 
used the most, and then over time, you know, we will have to 
continue to look at that problem, and there are issues related 
to the migration strategies--the system will always be changing 
as new formats occur.
    Ms. Thomas. And there are other agencies that have 
particular issues with certain kinds of formats. For example, 
the Navy with the ship plans that are produced electronically, 
and right now, there isn't a solution to how you preserve those 
records, and you have got a ship that you know you are probably 
going to have out to sea for at least 50 years, and they are 
going to continue to modify and adjust and install new 
technology and so forth. So you have to do something to those 
original plans to bring them up to date. So they are 
concentrating on that particular problem. We don't need to 
spend our resources doing that. We focus on the most common 
kinds of formats and hope that they will solve that problem at 
the point that we need to have that problem solved for us, too.
    Mrs. Emerson. That is understandable, but my gosh, what a 
huge thing. When you all were living under the long continuing 
resolution, was that a big problem or a setback for you?
    Ms. Morphy. Certainly, in terms of, public access is 
something that we have really wanted to do a forward on, as 
well as preservation, so we have been waiting. And so that is 
why we are just getting started on it.
    Mrs. Emerson. And all of the different parties, GAO and you 
all and Lockheed are working well together?
    Ms. Morphy. I would say so. We are working very well with 
Lockheed. In fact, we did have some problems that were back in 
2007, and since then, we have been staying within cost and 
schedule. So it has been a very good partnership, and GAO has 
been very helpful as well.
    Mrs. Emerson. Excellent.
    Well, Mr. Chairman, I have other questions for the record.
    Mr. Serrano. I am going to submit the rest of my questions 
for the record. But I just have one, one comment. Let me see if 
I get this straight, now, since I didn't get the other stuff 
right.
    Who holds the Constitution?
    Ms. Thomas. We do.
    Mr. Serrano. I knew that. Who holds the Declaration?
    Ms. Thomas. We do.
    Mr. Serrano. We get a lot of agencies that come before us, 
and they tell us that they are in danger of having that side of 
the Supreme Court building collapse or those records 
disintegrate. That is not in danger of happening to those 
precious documents, is it?
    Ms. Thomas. Oh, absolutely not. When we went through our 
renovation 5 years ago, one of the key parts of the renovation 
was to build new encasements for the Charters of Freedom 
because they had not been re-encased since 1954, and it was 
perfectly clear from some things that our conservators had 
noticed, that the gas that was in the cases had over those 
years escaped. So we have built, with the help of NIST, some of 
the most advanced preservation cases for those charters.
    Mr. Serrano. That is great news. You are, like any other 
agency, subject to regulations aimed at ensuring that the 
environmental and safety conditions of buildings allow records 
to be safely stored and preserved. To what extent are the 
facilities used by NARA not fully up to these standards, and 
what conditions are you in, in that area?
    Ms. Thomas. Well, we have actually two sets of regulations 
that apply to us. One is for Federal records centers, where a 
lot of the records that are stored there are going to be 
eventually disposed of. There are also records that will 
eventually come into the National Archives.
    So we have standards that provide better storage conditions 
for those records that have been identified as permanent. And 
we are in the process of bringing all of our records, either 
bringing the record centers that we are in up to standard or 
moving, and that is what we have done in some cases. For 
example, the Atlanta record center, there was no way that you 
would ever spend any money trying to bring that building up to 
standard, so we built a new record center in Atlanta. It is 
leased, but it was a special-purpose leased construction.
    We did that in Fort Worth, too, because there was no sense 
in trying to bring a World War II warehouse up to standard. It 
just wasn't going to happen. So, in those cases where we have 
known that, from our evaluations, it wasn't feasible, it wasn't 
cost-effective to bring a records center up to standard, we 
have moved into new facilities that meet standards.
    And in some cases, the record centers have been good 
enough, I will say, to bring them up to standards, for example, 
San Bruno, Seattle, Chicago, some of the others.
    We have different and more stringent standards for archival 
records because those are the records that are going to be kept 
for all those future generations, and a good deal of what you 
do with preservation is to make sure that they are in good 
environmental storage conditions. Archives II obviously meets 
those standards. When we did the renovation of Archives I, we 
brought the building up to standard. We are now in the process 
of making sure that all of our regional archives records are in 
facilities that meet standard.
    And again, we went through an evaluation and said, all 
right, this building can be brought up to standard and this one 
cannot. And we are in the process of bringing the regional 
archives at Waltham, San Bruno, Seattle, Chicago, up to 
standard.
    We are going to be moving out of the facility in Denver, 
Laguna. We built a new regional archives in Atlanta. So it is a 
combination of moving into better facilities or bringing the 
facility up to standard, so it is an ongoing process.
    Mr. Serrano. Let me ask you something before we close.
    Every Presidential Inauguration is historic, but I think we 
all agree that this one had a special historic significance. 
Besides the fact that, at the end of this administration, you 
will get those records, is there anything of the inauguration 
itself, the planning, the carrying on of the inauguration, that 
goes to you immediately, or does that go to other agencies?
    Ms. Thomas. Well, actually we may wind up with the 
inauguration records. Actually, those are not government 
records. The Inauguration Committee is a privately developed 
whatever, and we certainly enter into negotiations in hopes of 
getting those records donated to us. And I think that I really 
need to provide that answer for the record. I know we have been 
negotiating and----
    Mr. Serrano. Has this happened in the past?
    Ms. Thomas. Yes.
    Mr. Serrano. But it would be in negotiation with this semi-
quasi-private group?
    Ms. Thomas. Yes.
    Mr. Serrano. Maybe we can encourage them to turn it over.
    Well, we thank you for your testimony. Most importantly, we 
thank you for your service, both of you, your 68 years of 
service, jointly. That is a long time.
    And there are many hearings that we hold and hearings that 
we attend, hearings that we preside over and others that we 
participate in. This is always one of the more exciting ones 
because what you folks do is so vital, and which American, 
where is there an American who is not interested in what you 
keep and what you hold? And we know we get on that Web site, 
and I visit it, and it is just fabulous. And we will do 
whatever we have to do even during difficult economic times, to 
make sure that you can continue your work. And again, we thank 
you for your service. People always look at the military and 
look at other folks and say thank you for your service to our 
country. Well, thank you for preserving the history of our 
country and our government.
    Ms. Thomas. Thank you. We appreciate your support, too, 
very much.
    Mr. Serrano. Thank you. The hearing is adjourned.

      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           W I T N E S S E S

                              ----------                              
                                                                   Page
Fenty, A. M......................................................     1
Gandhi, N. M.....................................................     1
Gray, V. C.......................................................     1
Morphy, Martha...................................................   137
Prouty, Paul.....................................................    75
Thomas, A. C.....................................................   137

                                  <all>


</pre></body></html>
